<html>
<title> - CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 110-835]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-835
 
  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

=======================================================================



                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 11, 2007

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]
            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              
Hearing held in Washington, DC, January 11, 2007
Statement of:
    Rockefeller, Hon. John D., IV, Chairman, a U.S. Senator from 
      West Virginia..............................................     1
    Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
      Missouri...................................................     4
    Negroponte, Hon. John D., Director of National Intelligence..     6
    Hayden, General Michael V., Director, Central Intelligence 
      Agency.....................................................    13
    Fort, Hon. Randall M., Assistant Secretary of State for 
      Intelligence and Research..................................    17
    Mueller, Hon. Robert S., III, Director, Federal Bureau of 
      Investigation..............................................    19
    Maples, Lieutenant General Michael D., Director, Defense 
      Intelligence Agency........................................    23
Supplemental Materials:
    Statement for the Record of the Director of National 
      Intelligence John D. Negroponte............................    58
    Statement for the Record of Michael V. Hayden, Director of 
      the Central Intelligence Agency............................    72
    Statement for the Record of Randall M. Fort, Assistant 
      Secretary of State.........................................    77
    Statement for the Record of Robert S. Mueller III, Director, 
      Federal Bureau of Investigation............................    82
    Statement for the Record of Lieutenant General Michael D. 
      Maples, Director of the Defense Intelligence Agency........    91
    Letter dated March 30, 2007 to Director Michael V. Hayden, 
      Central Intelligence Agency, from Chairman John D. 
      Rockefeller IV and Vice Chairman Christopher S. Bond.......   121
    Letter dated March 30, 2007 to Director J. M. McConnell, 
      Office of the Director of National Intelligence, from 
      Chairman John D. Rockefeller IV and Vice Chairman 
      Christopher S. Bond........................................   127
    Letter dated September 12, 2007 to Chairman John D. 
      Rockefeller IV and Vice Chairman Christopher S. Bond from 
      Kathleen Turner, Director of Legislative Affairs...........   138
    Letter dated March 30, 2007 to Director Robert S. Mueller 
      III, Federal Bureau of Investigation, from Chairman John D. 
      Rockefeller IV and Vice Chairman Christopher S. Bond.......   146
    Letter dated February 4, 2008 to Chairman John D. Rockefeller 
      IV and Vice Chairman Christopher S. Bond to Brian A. 
      Benczkowski, U.S. Department of Justice....................   147
    Letter dated March 30, 2007 to Lieutenant General Michael D. 
      Maples, Director, Defense Intelligence Agency, from 
      Chairman John D. Rockefeller IV and Vice Chairman 
      Christopher S. Bond........................................   156
    Letter dated March 30, 2007 to Randall Fort, Department of 
      State, from Chairman John D. Rockefeller IV and Vice 
      Chairman Christopher S. Bond...............................   176
    Letter dated May 2, 2007 to Chairman John D. Rockefeller IV 
      from Jeffrey T. Bergner, Department of State...............   177


  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

                              ----------                              


                       THURSDAY, JANUARY 11, 2007

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The hearing convened, pursuant to notice, at 2:50 p.m., in 
room SH-216, Hart Senate Office Building, the Honorable Jay 
Rockefeller (Chairman of the Committee) presiding.
    Present: Senators Rockefeller, Feinstein, Wyden, Bayh, 
Mikulski, Feingold, Nelson of Florida, Whitehouse, Bond, 
Warner, Hagel, Chambliss, Hatch, Snowe, and Burr.

OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER, IV, CHAIRMAN, A 
                U.S. SENATOR FROM WEST VIRGINIA

    Chairman Rockefeller. This hearing will come to order. I 
welcome all of our witnesses in what is I think one of the most 
important public meetings of the year. This one will be open, 
and then we'll have a closed one, and I think between the two 
we can get a lot accomplished.
    Today the Senate Select Committee on Intelligence embarks 
on an ambitious agenda of hearings and Committee reviews that 
will restore meaningful congressional oversight of the 
activities of the U.S. intelligence community.
    I think it's fitting that the Committee's first hearing of 
2007 is on the worldwide threat. It's important not only that 
the Congress, but the American people understand that threats 
facing our country both inside our borders and abroad are 
significant. This is why the Committee is conducting this 
session openly.
    I am extremely concerned--and I'll just be frank about it 
from this Senator's point of view--that the misguided policies 
of the Administration have increased the threat facing our 
Nation and hampered our ability to isolate and defeat al-Qa'ida 
and other terrorists that seek to strike against the United 
States. I believe our actions in Iraq have placed our Nation 
more at risk to terrorist attack than before the invasion.
    Based on the findings of the Committee's Iraq 
investigation, I have concluded that the Administration 
promoted nonexistent links between Iraq and al-Qa'ida in an 
effort to, so to speak, sell the war that was fundamentally, in 
fact, about regime change, not about an imminent threat to 
America.
    The sobering consequences of our actions are well known. 
Over 3,000 Americans have died in Iraq, many thousands more are 
gravely wounded. Our military and intelligence efforts in 
fighting and capturing the Taliban and al-Qa'ida in Afghanistan 
were diverted at a very critical juncture to support the 
invasion of Iraq.
    Now these agents of extremism and violence have 
reestablished themselves in a safe haven that threatens not 
only America but also the governments in Kabul and Islamabad. 
Al-Qa'ida and foreign jihadists have used our occupation as an 
opportunity to strike against Americans and as a propaganda 
tool to spread its influence in Iraq and throughout the 
region--throughout the world.
    I also believe that this portrayal of our actions in Iraq 
has fueled the spread of the terrorist message and increased 
the number of self-radicalized terrorist cells in other parts 
of the world such as Asia and Europe.
    The ongoing war in Iraq has demanded enormous funding and 
personnel resources, which have strained our efforts in the 
global war on terrorism. And I have seen nothing in my service 
on the Intelligence Committee or any in other forum that 
suggests that sending an additional 21,500 American troops to 
Iraq will bring about greater security on the ground or lead to 
a more successful outcome.
    The overwhelming advice from our senior military commanders 
suggests that there's little reason to believe that the 
diplomatic, political and economic objectives will be any more 
successful with 153,000 troops than with the current 132,000 
troops. And that's really the crux, to me, of the President's 
new strategy--more troops.
    It is an approach that tinkers at the margins of a grave 
and deteriorating situation. It is not grounded in the 
realities that we face in Iraq and in the region, and it is an 
unacceptable gamble with additional soldiers' lives. The 
President must understand that even as the Congress continues 
to support and fund the brave work of our servicemen and 
servicewomen who are now serving in Iraq, we will push back on 
an ill-conceived plan to put more soldiers in harm's way.
    I also am troubled by what I see as an Administration 
counterterrorism policy, which in certain respects may be 
complicating, if not worsening our ability to win the war on 
terrorism.
    To be specific, I have serious misgivings about the 
soundness and effectiveness of the CIA's secret detention 
program, the NSA's warrantless surveillance program, both 
publicly acknowledged by the President of the United States. 
I'm concerned that the very existence of a separate CIA prison 
program established to interrogate high-value detainees under a 
different set of rules than those outlined in the Army Field 
Manual and repudiated, in fact, by the FBI, has undermined our 
moral standing in the eyes of the world.
    How many millions of moderate Arabs and Muslims around the 
world having seen the photos of Abu Ghraib, having heard 
stories about abuses at Guantanamo and who are now aware that 
the CIA operates a secret prison, believe that America tortures 
detainees?
    How does this perception help foster extremism around the 
world, and how do we weigh this fact, combined with lasting 
damage done to America's image, against the putative 
intelligence benefits of operating a separate CIA program in 
lieu of a single Pentagon program that is subject to greater 
scrutiny?
    With respect to the NSA surveillance program, I believe the 
Administration's policy has unnecessarily alienated an 
essential ally in combating the terrorist threat--the U.S. 
Congress. In the aftermath of 9/11, our Nation stood unified to 
defeat the terrorists; that was the hallmark. The 
Administration decision to go it alone and work outside the 
legal parameters of the Foreign Intelligence Surveillance Act 
was, in my judgment, a serious miscalculation and undercut the 
strength of our unity of purpose.
    This approach also created serious doubts in the minds of 
Americans, whose support is essential in any kind of effort of 
this sort, as to how far the Administration would go, in fact, 
in unilaterally carrying out secret programs seeking to 
identify potential terrorists inside our borders, inside 
America.
    The Administration has still not convincingly demonstrated 
to me that the ends justifies the means, in other words, that 
the NSA program has produced the sort of unique, timely and 
actionable intelligence to justify the surveillance of American 
phone calls and e-mail messages without a court warrant.
    As we hear from our witnesses today, I hope they can 
address these concerns about the effectiveness of our 
counterterrorism programs and whether the situation in Iraq has 
worsened the threats facing America's security.
    In the coming weeks and months, this Committee will receive 
testimony from intelligence officials and outside witnesses on 
critical questions at the heart of our national security 
policies.
    For your information, next week the Committee will hold a 
closed hearing on Iraq's regional neighbors and their influence 
on the war, including--in the light of the Iraq Study Group 
recommendations--the intelligence community's assessment on the 
receptivity of Syria, Iran and other nations to a regional 
diplomatic initiative and the consequences of changes in the 
U.S. military presence in Iraq.
    The Committee will then turn its attention to an 
examination of current, emerging and future terrorist safe 
havens. Our focus will not only be on current operations, such 
as in Somalia, to deny terrorist sanctuary where they can plot 
and carry out attacks, but also on the soundness and foresight 
of our counterterrorism policy to identify those places where 
the terrorists' virulent messages of violence may take root and 
preemptively try to stop it.
    In 2 weeks the Committee will hold a pair of open hearings 
on the state of the intelligence community reform 2 years after 
the passage of landmark legislation establishing an empowered 
Director of National Intelligence to manage and coordinate our 
intelligence programs.
    The focus of our next open hearing will be on the 
intelligence activities of the Federal Bureau of Investigation 
and the Department of Homeland Security. We will be interested 
in evaluating the pace of transformation at the FBI and the 
effectiveness of the newly created Joint Terrorist Task Forces 
and state and local fusion centers in carrying out 
counterterrorism investigations that do not run afoul of 
privacy rights and civil liberties.
    The Committee's workload will continue to be heavy beyond 
January. In addition to a number of closed hearings on 
developments in Afghanistan, Pakistan, Iran and North Korea, 
the Committee will hold monthly hearings on the situation in 
Iraq, including a hearing on the intelligence community's new 
Iraq National Intelligence Estimate once it is completed.
    Our first act of Committee business will be to re-pass the 
fiscal year 2007 intelligence authorization bill. The Committee 
unanimously reported this bill out last May, but it was never 
received with approval by the Senate.
    We must also complete the Committee's 2\1/2\-year 
investigation of prewar intelligence on Iraq in a prompt, but 
thorough and objective manner. We should have and we could have 
completed this years ago.
    There is other unfinished business before the Committee in 
the area of counterterrorism. For 4 years the Administration 
kept the very existence of the National Security Agency's 
warrantless surveillance program and the Central Intelligence 
Agency's detention, interrogation and rendition program from 
the full membership of this Committee. Through the over-
restriction of Member and Committee staff access to the NSA and 
CIA programs and the denial of requested documents, the White 
House has prevented this Committee from completely 
understanding these programs and thoroughly evaluating their 
legal soundness and their operational effectiveness.
    The Senate will rightfully expect our Committee to have 
informed judgment on both the NSA and CIA programs and to be 
prepared, if this Committee so decides, to propose legislative 
language on each by the time we report out our fiscal 2008 
authorization bill this spring.
    The Administration can no longer stonewall the Committee's 
legitimate requests with respect to those two programs. It 
needs to understand the fundamental precept that congressional 
oversight is a constructive and necessary part of governance.
    Our Committee stands ready to work with the Administration, 
and we do, but we also want to be treated equally. We want to 
know what is our right under the National Security Act of 1947, 
to have the intelligence which gives the basis for 
policymaking, or perhaps which does not. But we cannot 
responsibly do our work so long as we are deprived of critical 
information that we do need, in fact, to do our job..
    Before introducing the witnesses, I now turn to Vice 
Chairman Bond for his opening remarks.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chaiman Bond. Thank you very much, Mr. Chairman, and 
welcome to our witnesses. It's a great honor for me to serve as 
Vice Chairman, and I look forward to working with you, Mr. 
Chairman, and the Members of the Committee.
    I'm very pleased that we worked on the agenda for the 
Committee this year. It is an aggressive one because there's 
much work that has to be done, work that we postponed as we 
continue to look backward over the last 4 years. But we are 
going to pass the 2007 authorization bill, find out about the 
intelligence that is supporting our troops in Iraq--a very 
important thing to me and others.
    We want to take a look at how we're doing in the battle of 
ideology, because an insurgency, an ideological war, is 20 
percent kinetic and 80 percent ideological. And I would look 
forward to your views and members of the panel on how we're 
doing in that area.
    We also need to take a look at the other areas where 
radical Islamists pose a threat to responsible democratic 
governments, to Americans, and even to the United States. I 
believe that we must look at the intel reform bill because I 
believe we gave the Director of National Intelligence lots of 
responsibility, but not enough authority to get the job done. 
And that's a legislative problem.
    Also, I think we ought to consider whether we can work with 
the agencies to develop a legislative framework for 
counterterrorism. There will be a change in the Administration 
in January 2009 and I think that we ought to have an 
established legislative framework for that extremely important 
work.
    And finally, I hope we can do a better job working with the 
community to get a handle on finances, get Intelligence 
Committee input into the appropriations process, and take a 
look at some of the very costly activities in the intelligence 
community.
    We have much work to do in the 110th Congress. This was 
supposed to be a hearing on the worldwide threat. As everybody 
knows with the President's announcement, most people are going 
to be focusing on Iraq, and I will as well. And I believe the 
Chair and I have been invited to serve on a consultation group 
with the President and other Committee heads to continue to 
oversee and comment on this program.
    But I have a slightly different view. I believe that there 
is something different between what we have been doing with the 
forces that were there. Adding more forces to the existing 
scenario would not have been of any help. But I believe now 
that Prime Minister al-Maliki has agreed to take ownership and 
put the Iraqis out front, that--he's asked us for additional 
support to support his troops as they take over security in 
Iraq--is probably the only available option for concluding our 
efforts in Iraq successfully, and I'm going to ask questions 
about that.
    But I believe that participation and full ownership by the 
elected government of Iraq is the critical ingredient. It's 
time for Iraqis to step up to the plate or we will obviously 
consider other options.
    America has sacrificed greatly to give the Iraqis this 
historic opportunity. They must seize day. Our commitment to 
Iraq is firm, but not in perpetuity. And Prime Minister al-
Maliki can either be the father to a modern Iraq, as George 
Washington was to the United States, if you will, or a 
forgotten footnote in the history of whatever remains of the 
territory that formerly was called Iraq.
    There are steps that the President has taken to recognize 
the burdens on our military, our National Guard, our 
reservists; I think those are important.
    But as I said, Iraq's not our only concern. North Korea 
continues the development of both nuclear weapons and advanced 
delivery systems. Iran apparently has rejected international 
sanctions and forges ahead with nuclear developments. Radical 
Islamists are festering the potential for terrorist attacks in 
areas of Southeast Asia, Pakistan, parts of Iraq, potentially 
endangering the United States as well.
    We also too often neglect some of the concerns in South 
America as well as other areas that could become terrorist safe 
havens.
    The preeminent conflict of the last generation was with a 
monolithic superpower, the Soviet Union. Today we face a myriad 
of enemies united by a militant ideology infested with hatred 
for America and the freedoms, hopes and opportunities we 
represent. We have a different battle.
    And I would say parenthetically, with respect to the access 
by this Committee to information, the leaders of this Committee 
and the leaders on both sides in the Senate and the House were 
briefed on the President's terrorist surveillance program. I 
was not. I really think I should have been. But I can say that, 
now that I have been read into the program and studied it 
carefully and the underlying law, I believe not only is it 
within the guidelines of the law and strongly and carefully 
enforced to make sure it stays there, but I believe it's been 
very effective, and I'm sure that there are witnesses here who 
can comment on the effectiveness of the programs.
    So with that, Mr. Chairman, I thank you and look forward to 
hearing the witnesses.
    Chairman Rockefeller. Thank you, Vice Chairman Bond, for 
what was an excellent statement.
    And obviously we welcome you very genuinely. This is kind 
of the beginning of a new era, I think. We are serious; the 
Vice Chairman and myself, and Members of this Committee are 
serious about getting intelligence, of working with you 
together. If there's ever any time that we need to do that, it 
certainly is now. Disagreements on policy do not mean something 
is political; it means that there can be honest differences 
that can only be worked out if people are willing to talk to 
each other in open fashion. All of you have that nature.
    And so let me just say, in order to allow maximum time for 
Senators to ask questions of our witnesses, I ask that their 
full written statements be made a part of the record, without 
objection. And I've asked that each of our witnesses briefly 
summarize their statements.
    Now, obviously, as the head of the intelligence community, 
Director John Negroponte will begin, and we have asked the 
Director to try to keep his remarks to 20 minutes. And then 
after that, we would hope that the other equally important 
witnesses would try to keep within 10 minutes.
    And for the Members of the Intelligence Committee, we will 
be restricted to 5-minute questions in as many rounds as we can 
do.

  STATEMENT OF HON. JOHN D. NEGROPONTE, DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Director Negroponte. Thank you.
    Mr. Chairman, Vice Chairman Bond, Members of the Committee, 
thank you for the invitation to offer the intelligence 
community's assessment of threats to our Nation.
    I'm privileged to be accompanied by General Michael Hayden, 
Director of the CIA; General Michael Maples, Director of the 
Defense Intelligence Agency; Mr. Robert Mueller, Director of 
the FBI; and Mr. Randall Fort, Assistant Secretary of State for 
Intelligence and Research.
    Judgments I will offer the Committee are based on the 
efforts of thousands of patriotic, highly skilled 
professionals, many of whom serve in harm's way.
    The U.S. intelligence community is the best in the world, 
and I'm pleased to report that it is even better than it was 
last year as a result of reforms mandated by the President and 
the Congress. These reforms promote better information sharing, 
the highest standards of analytic rigor, the most innovative 
techniques of acquiring information, and a stronger sense of 
community across our 16 agencies.
    The Nation requires more from our intelligence community 
than ever before because America confronts a greater diversity 
of threats and challenges than ever before.
    This afternoon, in the interest of brevity, I will address 
only a few of these threats and challenges, providing more 
comprehensive assessments in my unclassified and classified 
statements for the record.
    My comments will focus on: Our efforts to defeat 
international terrorist organizations, especially al-Qa'ida, 
which is seeking to strengthen its global network of 
relationships with other violent extremists; the challenges 
Iraq and Afghanistan confront in forging national institutions 
in the face of inter-sectarian insurgent and terrorist 
violence; the two states most determined to develop weapons of 
mass destruction, Iran and North Korea; the shadow that Iran 
has begun to cast over the Middle East; turmoil in Africa; 
democratization in Latin America; China's economic and military 
modernization; and energy security and the foreign policy 
benefits which high prices offer states that are hostile to 
U.S. interests.
    First, terrorism. Terrorism remains the preeminent threat 
to the homeland, to our national security interests, and to our 
allies. In the last year, we have developed a deeper 
understanding of the enemy we face. Al-Qa'ida is the terrorist 
organization that poses the greatest threat. We have captured 
or killed numerous senior al-Qa'ida operatives, but al-Qa'ida's 
core elements are resilient. They continue to plot attacks 
against our homeland and other targets, with the objective of 
inflicting mass casualties. And they are cultivating stronger 
operational connections and relationships that radiate outward 
from their leaders' secure hideout in Pakistan to affiliates 
throughout the Middle East, North Africa and Europe.
    Use of conventional explosives continues to be the most 
probable al-Qa'ida attack scenario. Nevertheless, we receive 
reports indicating that al-Qa'ida and other terrorist groups 
are attempting to acquire chemical, biological, radiological 
and nuclear weapons or materials. Their objective, as I have 
said, is to inflict mass casualties. They will employ any means 
at their disposal to achieve that objective.
    In addition to al-Qa'ida--its networks and affiliates--I 
would highlight the terrorist threat from Hizballah, backed by 
Iran and Syria. As a result of last summer's hostilities, 
Hizballah's self-confidence and hostility toward the United 
States as a supporter of Israel could cause the group to 
increase its contingency planning against U.S. interests.
    We know from experience since 9/11 that countering 
terrorism depends on effective international cooperation. Our 
successes so far against al-Qa'ida and other jihadists and our 
ability to prevent attacks abroad and at home have been aided 
considerably by the cooperation of foreign governments, among 
them Iraq, the United Kingdom, Saudi Arabia, Turkey, Pakistan, 
Afghanistan and many others.
    It is important to note our shared successes, not to take 
credit but to demonstrate results. The longer we fight this 
war, the better we get at inflicting serious setbacks to our 
adversaries.
    For example, in Iraq we eliminated al-Qa'ida in Iraq's 
murderous leader, Abu Musab al-Zarqawi. Also in Iraq, we have 
severely damaged Ansar al-Sunna's leadership and operational 
capacity.
    In the United Kingdom, a plot to perpetrate the worst 
terrorist slaughter of innocent civilians since 9/11 was 
detected and disrupted.
    And in Pakistan, last April, Abdel al-Rahman al-Muhajir and 
Abu Bakr al-Suri, two of al-Qa'ida's top bomb-makers, were 
killed.
    Again, I emphasize that we do not and could not accomplish 
our counterterrorism mission unilaterally. Our role varies from 
situation to situation. But what does not vary is our 
requirement for good intelligence and committed partners, which 
we have in all parts of the world.
    Now turning to Iran and Afghanistan--the two countries 
where the U.S. military is engaged in combat--Iraq and 
Afghanistan face challenges that are exacerbated by terrorism, 
but not exclusively attributable to it.
    In Iraq, sectarian divisions are widening, but the 
multiparty government of Nouri al-Maliki continues to seek ways 
to bridge the divisions and restore commitment to a unified 
country. The effort to create a so-called moderate front of 
major parties from the country's three major ethno-sectarian 
groups to back the Prime Minister has underscored moderates' 
interest in bridging the gaps between Iraq's communities.
    Iraqi security forces have become more numerous and capable 
since my last threat briefing. Six division headquarters, 30 
brigades and more than 90 battalions have taken the lead in 
their operational areas, have battled insurgents on their own 
and have stood up to the militias in some cases.
    Nonetheless, Iraq is at a precarious juncture. The various 
parties have not yet shown the ability to compromise 
effectively on the thorny issues of de-Ba'athification, 
constitutional reforms, federalism, and central versus regional 
control over hydrocarbon revenues. Provision of essential 
public services is inadequate. Oil output remains below prewar 
levels. Hours of electric power available have declined and 
remain far below demand, and inflationary pressures have grown 
since last year.
    Increasingly, the Iraqis resort to violence. Their conflict 
over national identity and the distribution of power has 
eclipsed attacks against the coalition forces as the greatest 
impediment to Iraq's future as a peaceful, democratic and 
unified state.
    Prospects for increasing stability in Iraq over the next 
year will depend on several factors--among them, the extent to 
which the Iraqi government and political leaders can establish 
effective national institutions that transcend sectarian or 
ethnic interests, and within this context the willingness of 
Iraqi security forces to pursue extremist elements of all 
kinds; the extent to which extremists, most notably al-Qa'ida 
in Iraq, can be defeated in their attempt to foment inter-
sectarian struggle between Shi'a and Sunnis; and last, the 
extent to which Iraq's neighbors, especially Iran and Syria, 
can be persuaded to stop the flow of militants and munitions 
across their borders.
    As in Iraq, 2007 will be a pivotal year for Afghanistan. 
The ability of the Karzai government, NATO and the United 
States to arrest the resurgence of the Taliban will determine 
the country's future. At present the insurgency probably does 
not directly threaten the government, but it is deterring 
economic development and undermining popular support for 
President Karzai.
    Afghan leaders must build central and provincial government 
capacity and confront pervasive drug cultivation and 
trafficking. Neither task will be easy. The country faces a 
chronic shortage of resources and of qualified and motivated 
government officials. The drug trade contributes to endemic 
corruption at all levels of government and undercuts public 
confidence. And a dangerous nexus exists between drugs and the 
insurgents and warlords who derive funds from cultivation and 
trafficking.
    Turning now to states of concern with regard to 
proliferation of weapons of mass destruction, after terrorism, 
the efforts of nation-states and non-state actors, including 
terrorists, to develop and/or acquire dangerous weapons and 
delivery systems constitute the second major threat to the 
safety of our Nation, to our deployed troops, and to our 
friends and interests abroad.
    Dual-use technologies circulate easily in our global 
economy; so do the scientific personnel who design and use 
them. That makes it more difficult for us to track efforts to 
acquire these widely available components and production 
technologies and to adapt them to nefarious purposes.
    Iran and North Korea are the states of most concern to us 
today because their regimes are pursuing nuclear programs in 
defiance of United Nations Security Council restrictions.
    Our assessment is that Tehran is determined to develop 
nuclear weapons. It is continuing to pursue uranium enrichment 
and has shown more interest in protracting negotiations than in 
reaching an acceptable diplomatic solution.
    Iranian nuclear weapons could prompt dangerous and 
destabilizing counter-moves by other states in a volatile 
region that is critical to the global economy.
    By pressing forward with its nuclear weapons and missile 
programs, North Korea also threatens to destabilize a volatile 
and vital region, a region that has known several great-power 
conflicts over the last century and now comprises some of the 
world's largest economies.
    As you know, North Korea flight tested missiles in July and 
tested a nuclear device in October. Pyongyang has threatened to 
test its nuclear weapons and missiles again. Indeed, it already 
has sold ballistic missiles to several Middle Eastern 
countries.
    Turning now to regional conflicts, instability, 
reconfigurations of power and influence, first, the Middle 
East, an emboldened Iran.
    In the Middle East, Iran's influence is rising in ways that 
go beyond the menace of its nuclear program. The fall of the 
Taliban and Saddam, increased oil revenues, Hamas's electoral 
victory, and Hizballah's perceived recent successes in fighting 
against Israel all extend Iran's shadow in the region. This 
disturbs our Arab allies who are concerned about worsening 
tensions between Shi'a and Sunni Islam, and face heightened 
domestic criticism for maintaining their partnerships with 
Washington.
    Iran's growing influence has coincided with a generational 
change in Tehran's leadership. Iranian President Ahmadinejad's 
administration, staffed in large part by second-generation 
hardliners imbued with revolutionary ideology and deeply 
distrustful of the United States, has stepped up the use of 
more assertive and offensive tactics to achieve Iran's long-
standing goals.
    Under the Ahmadinejad government, Iran is enhancing its 
ability to project its military power, primarily with ballistic 
missiles and naval power, with the goal of dominating the Gulf 
region and deterring potential adversaries.
    Iran seeks a capacity to disrupt the operations and 
reinforcement of U.S. forces based in the region, thereby 
raising the political, financial and human costs of our 
presence to the United States and our allies. Tehran views its 
growing inventory of ballistic missiles as an integral part of 
its strategy to deter and, if necessary, retaliate against 
forces in the region, including U.S. forces.
    Another key element of Iran's national security strategy is 
its ability to conduct terrorist operations abroad. It believes 
this capability helps safeguard the regime by deterring United 
States or Israeli attacks, distracting and weakening Israel, 
enhancing Iran's regional influence through intimidation, and 
helping to drive the United States from the region.
    Lebanese Hizballah lies at the center of Iran's terrorism 
strategy. Hizballah is focused on its agenda in Lebanon and 
supporting anti-Israeli Palestinian terrorists. But as I 
indicated earlier, it could decide to conduct attacks against 
U.S. interests in the event it feels its survival or that of 
Iran is threatened.
    Why would it serve Iran in this way? Because Lebanese 
Hizballah sees itself as Tehran's partner, sharing Tehran's 
world view and relying on Tehran for a substantial part of its 
annual budget, military equipment and specialized training.
    Syria has also strengthened ties with Iran while growing 
more confident about its regional policies. This is due 
primarily to what it sees as vindication of its support to 
Hizballah and Hamas and its perceptions of success in 
overcoming international attempts to isolate the regime.
    Damascus has failed to cutoff militant infiltration into 
Iraq and continues to meddle in Lebanon. As a result, Lebanon 
remains in a politically dangerous situation, while Damascus, 
Hizballah and other pro-Syrian groups attempt to topple the 
government of Prime Minister Siniora.
    In the Palestinian territories, inter-factional violence 
has intensified in the Gaza Strip and the West Bank since the 
establishment of the Hamas-led Palestinian Authority government 
in March. Absent success in forming a national unity 
government, this violence threatens to escalate further.
    Talks have stalled over disputes about the political 
platform and control of key Cabinet positions. Hamas rejects 
Quartet and Israeli demands for explicit recognition of Israel, 
renunciation of armed resistance to Israeli occupation, and 
acceptance of previous PLO and international agreements.
    Turmoil in Africa. The Darfur conflict is the world's 
fastest growing humanitarian crisis, with more than 200,000 
people killed, 2 million internally displaced, and another 
234,000 refugees in neighboring Chad.
    Rebel groups continue to fight against the government 
because the existing peace agreement fails to satisfy their 
security concerns and their demands for power sharing and 
compensation. The Sudanese military has been unable to force 
the rebels to sign the peace accord, and with assistance form 
local militias, it is attacking civilian villages suspected of 
harboring the rebels.
    In addition, Chadian and Central African Republic rebel 
groups have become entangled in the Darfur crisis. The 
spillover of violence in the past 10 months threatens to 
destabilize already weak regimes in both countries.
    The rapid collapse of the Council of Islamic Courts and the 
arrival of the transitional Federal Government, the TFG, in 
Mogadishu has altered the political dynamics of southern 
Somalia. The TFG faces many of the same obstacles that have 
kept any single group from establishing a viable government in 
Somalia since the country collapsed in 1991.
    Somali society is divided into numerous clans and sub-clans 
that resist seeing one group rise above the others. To win the 
confidence and support of the population and to have any chance 
of restoring order, the TFG will need to be more inclusive and 
demonstrate effective governance.
    More turmoil could enable extremists to regain their 
footing, absent mechanisms to replace the temporary Ethiopian 
presence with an internationally supported Somali solution. Al-
Qa'ida remains determined to exploit turmoil in Somalia.
    Democracy in Latin America. Gradual consolidation of 
democracy has remained the prevailing tendency in Latin 
America, although some commentators have spoken of a lurch to 
the left in the region.
    This year's numerous elections point to no dominant 
ideological trend. Moderate leftists who promote macroeconomic 
stability, poverty alleviation, and the building of democratic 
institutions fared well, as did able, right-of-center leaders. 
At the same time, individuals who are critical of free-market 
economics won the presidency in two of Latin America's poorest 
countries, Ecuador and Nicaragua.
    In Venezuela, Chavez reacted to his sweeping victory on 
December 3 by promising to deepen his self-described Bolivarian 
Revolution and to intensify the struggle against U.S. 
imperialism.
    He is among the most stridently anti-American leaders 
anywhere in the world and will continue to try to undercut U.S. 
influence in Venezuela, in the rest of Latin America, and 
elsewhere internationally. As he does so, he must confront the 
fact that in Cuba--his close ally--the transition to a post-
Castro regime has now begun.
    In Mexico, President Felipe Calderon of the ruling National 
Party was inaugurated on December 1 after a razor-thin majority 
margin of victory over his close opponent, leftist populist 
Andres Manuel Lopez Obrador of the Party of the Democratic 
Revolution.
    The July election illustrated the country's polarization 
along socio-economic lines. The new government has initiated 
steps to address problems in northern Mexico that affect both 
Mexican and U.S. security concerns, including drug smuggling, 
human trafficking, and associated violence.
    The rise of China. In 2006 Chinese leaders moved to align 
Beijing's foreign policy with the needs of domestic 
development, identifying opportunities to strengthen economic 
growth, gain access to new sources of energy, and mitigate what 
they see as potential external threats to social stability.
    At the same time, China places a priority on positive 
relations with the United States while strengthening ties to 
the other major powers, especially the European Union and 
Russia.
    PRC leaders continue to emphasize development of friendly 
relations with the states on China's periphery to assure 
peaceful borders and to avoid perceived containment by other 
powers. In the past year, China achieved notable success in 
improving relations with Japan under newly elected Prime 
Minister Abe, and prospects for cross-strait conflict with 
Taiwan diminished. In addition----
    Chairman Rockefeller. I need to point out with full respect 
that your time is up.
    Director Negroponte. I have 2 more minutes, sir--2 or 3.
    Chairman Rockefeller. You're close to 25, but you're 
welcome to them. So if you can complete in that time, that's 
excellent. And I thank you.
    Director Negroponte. Thank you very much.
    Beijing continues its rapid rate of military modernization 
initiated in 1999. We assess that China's aspirations for 
great-power status and its security strategy would drive this 
modernization effort even if the Taiwan problem were resolved.
    The Chinese are developing more capable long-range 
conventional strike systems and short- and medium-range 
ballistic missiles with terminally guided maneuverable warheads 
able to attack U.S. carriers and airbases.
    We have entered a new era in which energy security will 
become an increasing priority for the United States, the West 
and fast-developing major energy consumers like China and 
India. Oil prices have fallen by more than 25 percent since 
their peak last July and spare production capacity has grown to 
more than 2 million barrels per day.
    But escalating demand for oil and gas has resulted in 
windfall profits for some producer nations that are openly 
hostile to our interests. Iran and Venezuela fall into this 
category. Russia now sees itself as an energy superpower, a 
status with broad ramifications that include strong-arm tactics 
in its relations with neighboring states.
    Conclusion. Each of the national security challenges I have 
addressed today is affected by the accelerating technological 
change and transnational interplay that are the hallmarks of 
21st century globalization. Globalization is not a threat in 
and of itself; it has more positive characteristics than 
negative. But globalization does facilitate terrorist 
operations, raises the dangers of WMD proliferation, stimulates 
regional reconfigurations of power and influence, especially 
through competition for energy, and exposes the United States 
to mounting counterintelligence challenges.
    In this maelstrom of change, many nation-states are unable 
to provide good governance and sustain the rule of law within 
their borders. This enables non-state actors and hostile states 
to assault these fundamental building blocks of the 
international order, creating failed states, hijacked states 
and ungoverned regions that endanger the international 
community and its citizens.
    More to the point, it also threatens our own national 
security and support for freedom and democracy, notably in Iraq 
and Afghanistan where our troops and those of our allies are 
helping defend freely elected governments and sovereign 
peoples.
    In the 21st century, the fact is that events anywhere can 
and often do affect us. This does not mean that all threats and 
challenges are equally important. At any given point in time, 
we must pay greater attention to those that are most dangerous.
    In our national intelligence enterprise, the military, 
foreign, counterintelligence and domestic dimensions must be 
seamlessly integrated to provide our policymakers, warfighters, 
and first responders with the time and insight they need to 
make decisions that will keep Americans safe.
    Thank you, Mr. Chairman. I appreciate your indulgence.
    [The prepared statement of Ambassador Negroponte is on p. 
58.]
    Chairman Rockefeller. Director Negroponte, I thank you very 
much. I didn't mean to interrupt, but we have to sort of keep 
on schedule.
    I'm very proud to present once again to the Intelligence 
Committee General Michael Hayden, Director of the Central 
Intelligence Agency. We look forward to your comments, sir.

   STATEMENT OF GENERAL MICHAEL V. HAYDEN, DIRECTOR, CENTRAL 
                      INTELLIGENCE AGENCY

    General Hayden. Thank you, Mr. Chairman, Vice Chairman 
Bond, and Members of the Committee.
    The CIA is at the forefront of our national response to the 
challenges that Ambassador Negroponte has just presented to the 
Committee. The men and women of the Central Intelligence Agency 
are indeed central to our Nation's ability to detect, analyze, 
and warn of the risks and opportunities we face in this kind of 
global environment.
    What I'd like to share with you today in open session, and 
frankly more comprehensively in the classified statement for 
the record, are some of the steps that CIA has taken to build 
on our unique strengths and to help ensure that the United 
States is able to meet the challenges that the DNI has just 
described.
    The Strategic Intent--an intent I've discussed with the CIA 
workforce in recent weeks and which the Committee has copies 
of--is our road map to building a more effective organization 
in fulfilling our paramount mission, and that's simply 
protecting the American people.
    The central theme of our Strategic Intent is integration, 
operating as a team within our agency, and as a team within the 
larger intelligence community.
    We're made up of many parts. CIA has to have world-class 
analysts who are experts in their fields and who employ 
rigorous analytic tradecraft in the assessments they provide 
policymakers, including the Members of this Committee.
    We have to have core collectors who are conversant in the 
languages and cultures of the countries in which they work and 
who can collect decisive intelligence against tough targets 
from a variety of collection platforms.
    Our support specialists--and I know many of you have 
traveled to our bases and stations around the world and have 
witnessed this firsthand--our support specialists have to have 
the agility and proficiency to facilitate our work anywhere in 
the world, and frequently they have to do it on very short 
notice. Our S&T officers--science and technology--must always 
give our operators a decisive edge that our adversaries can't 
match.
    Let me talk for a few minutes about collection.
    As the national human intelligence, HUMINT, manager, CIA is 
working to build an integrated national HUMINT service and 
working to enhance the entire community's relationships with 
liaison foreign intelligence services. Our focus remains on 
collecting information that will tell us the plans, the 
intentions and the capabilities of our adversaries and that 
provide the basis for decision and action. It's crucial we 
develop and deploy innovative ways to penetrate tough targets.
    From the perspective of CIA 's collection, globalization 
is--as Ambassador Negroponte has just stated--the defining 
characteristic of our age. It requires us to find new ways to 
collect key intelligence on targets, whether they be 
terrorists, weapons of mass destruction proliferators, or 
simply daily business in volatile regions of the world.
    We're waging a global, high-stakes war against al-Qa'ida 
and other terrorists that threaten the United States, and 
that's a fundamental part of our mission. We work on our own; 
we work with other U.S. Government agencies; and we work with 
foreign liaison partners to target terrorist leaders, terrorist 
cells, disrupt their plots, sever their financial and logistic 
links, and roil their safe havens.
    Our war on terror is conducted from our Counterterrorism 
Center, or CTC, and is carried out, for the most part, from our 
stations and bases overseas. CTC has both an operational and an 
analytic component, and the fusion of those two--ops and 
analysis--is critical to its success. Moreover, CTC works very 
closely with NCTC, Ambassador Negroponte's National 
Counterterrorism Center, to assure protection of the homeland.
    CIA's collection on terrorist targets--particularly 
collecting through human source--has been steadily improving in 
both quantity and quality since 9/11. Penetrating secretive 
terrorist organizations is our greatest challenge. We have made 
significant strides in this regard, although I am extremely 
concerned by the damage done to our efforts by rampant leaks in 
recent years. Leaks can and have led to grave consequences for 
our efforts.
    I think the Committee knows very well that terrorist plots 
and groups aren't broken up by a single report or a single 
eureka moment or a single source. No detainee, for example, 
knows everything there is to know about the compartment 
activities, even of their own group. We do this via 
painstaking, all-source analysis, and that drives and supports 
our operations.
    The work of CTC has been crucial to identify and target 
those who would do us harm.
    With regard to WMD, CIA also dedicates significant 
resources to countering the threats posed by weapons of mass 
destruction and associated delivery systems. As the Ambassador 
pointed out, we focus on North Korea and Iran, two states with 
WMD programs that threaten regional balances, threaten U.S. 
interests, and threaten nonproliferation regimes.
    We also focus on the WMD and missile programs of Russia and 
China, programs that are large enough to threaten U.S. survival 
if the political leaderships of those countries decided to 
reverse themselves and assume a hostile stance.
    We watch also for other states or non-state actors, early 
signs that they may be taking steps toward acquiring nuclear, 
biological or chemical weapons.
    In both Iraq and Afghanistan, we work to gather critical 
information on terrorism, insurgency, stabilization, nation 
building, security, foreign relations, infrastructure, and we 
do all that on both the strategic and tactical level.
    A priority in our efforts in both those locations is the 
collection of force protection intelligence to support 
warfighting and counterterrorism activities of U.S. and allied 
forces.
    In Iraq, the insurgency, sectarian violence, and the role 
of external actors acting against coalition goals and coalition 
forces remain key features of the unstable situation there and 
a major focus of our collection.
    In Afghanistan we are working to counter al-Qa'ida, 
Taliban, and anti-coalition militants who threaten the 
stability of the Afghan state.
    In all these operations we maintain a very close 
relationship with the U.S. military on many levels. We provide 
liaison officers dedicated to senior U.S. commanders, as well 
as operating in several working-level fusion cells with our 
military partners.
    Let me spend a minute talking about a relatively new 
discipline that's showing both great promise and great 
production, and that's open source intelligence. To meet the 
challenge of global coverage that Ambassador Negroponte has 
outlined, we're playing a leading role in exploiting readily 
available information--open source information.
    We are the executive agent for the DNI's Open Source 
Center, and we've elevated both the organizational status of 
the center and the visibility of the open source discipline 
inside CIA and inside our community. We recognize its unique 
and growing contributions to integrated collection and 
analysis.
    Let me spend a few minutes talking about analysis, which of 
course, is a very challenging activity for us.
    The ongoing successes of this collection activity and other 
efforts by the men and women of CIA are the foundation for that 
equally important analytic mission. Producing timely analysis 
that gives insight, warning and opportunity--not analysis for 
its own sake, but providing the underpinning for insight, 
warning and opportunity--to the President, to other 
decisionmakers, to yourselves is the foundation of our analytic 
effort.
    As the DNI has made clear, we operate in a very unstable 
and dangerous world. Our adversaries in the long war on 
terrorism are dispersed across the planet. They're resilient, 
they're ruthless, they're patient, and they're committed to the 
mass murder of our countrymen.
    The possession and proliferation of weapons of mass 
destruction threatens both international stability and our 
homeland. The rise of China and India and the emergence of new 
economic centers are transforming the economic and geopolitical 
landscape. As I already pointed out, weak governments, lagging 
economies, and competition for energy will create crises in 
many regions that we have to foreshadow and predict for 
decisionmakers.
    The complexity and interdependence of these issues demands 
the very best analysis. To achieve this we are continuing to 
enhance our tradecraft, our ability to analyze and expanding 
our analytic outreach.
    Let me talk for a minute about this: We're making major 
investments in analytic training. We've got a 16-week course 
for all incoming analysts with a dozen modules in it built 
around things like the analytic thinking process. It includes 
sessions on assumptions, sessions on framing questions, 
analytic tools, alternative analysis, and how to weigh 
information.
    The Sherman Kent School has 22 courses of advanced analysis 
and it's designed to meet the tradecraft needs of experienced 
analyst--required courses on critical thinking, writing, 
briefing, and collection.
    These tradecraft efforts, as well as our Red Cell, continue 
to produce alternative analytic papers designed to challenge 
conventional wisdom, lay out plausible alternative scenarios, 
and re-examine working assumptions.
    We're also routinely engaging academics and outside experts 
to critique and strengthen our analysis.
    In November, we launched an innovative online presentation 
of our core, our flagship daily intelligence publication; it's 
called the World Intelligence Review, or the WIRe. The WIRe 
online leverages the best of modern Web technology.
    Mr. Chairman and other Members of the Committee, in 
closing, let me affirm that we're pursuing our strategic goals 
and positioning ourselves to meet the threats outlined here 
today, but will do so in a way that is true to our core values 
of service, integrity and excellence. They are the constants 
that reflect the best of our agency's unique history and the 
best of our previous accomplishments. They are the values that 
have served us well and will continue to guide us.
    Thank you, Mr. Chairman.
    [The prepared statement of General Hayden is on p. 72.]
    Chairman Rockefeller. Thank you very much, General Hayden.
    I might just point out to everybody that I think there's a 
vote, a single vote at 4:15. Vice Chairman Bond and I will just 
switch off, moving swiftly in order to keep this going.
    So, according to the protocol, the Assistant Secretary of 
State for Intelligence and Research, Randall Fort, we very much 
welcome you, sir.

STATEMENT OF HON. RANDALL M. FORT, ASSISTANT SECRETARY OF STATE 
                 FOR INTELLIGENCE AND RESEARCH

    Mr. Fort. Thank you, Mr. Chairman, Mr. Vice Chairman, 
Members of the Committee. I am pleased to have the opportunity 
today to present the views of the State Department's Bureau of 
Intelligence and Research on the current and projected threats 
to the United States.
    As Ambassador Negroponte has noted, the intelligence 
community is acutely aware of, and there is broad intelligence 
community consensus about, the dynamic nature of threats to 
U.S. interests. And INR generally shares the judgments 
presented by the DNI and to be presented by my colleagues.
    Therefore, rather than revisit the assessments already 
stated, I would like to explain how INR, as the State 
Department's in-house intelligence unit, supports the Secretary 
of State and department principals by acting as what I would 
call an intelligence ``force multiplier,'' identifying, 
assessing, and explaining the significance and the relevance of 
threats that could jeopardize U.S. diplomatic and foreign 
policy interests.
    As the DNI stated, it is essential that the community have 
in-depth, comprehensive global coverage to identify and 
understand the threats we face. At the same time, the 
difficulties inherent in anticipating rapid and unexpected 
changes within global financial markets and the technology 
sector, for example, pose potential challenges to our defense 
and foreign policy establishments.
    In recognition of the urgency of these new challenges, 
Secretary of State Rice has established ``transformational 
diplomacy'' as one of the fundamental engines of our foreign 
policy. The aim of this new approach is to re-fashion 
traditional diplomatic institutions and practices to serve new 
diplomatic purposes. Changing the world, not merely reporting 
on it, is the operative essence of Transformational Diplomacy.
    The Secretary's new initiative underscores the pivotal role 
diplomacy plays in anticipating, understanding, and countering 
real and potential threats to vital U.S. interests. INR's 
mandate is to provide the timely, accurate and actionable 
intelligence analysis necessary to enable U.S. diplomacy to 
confront and address those threats and challenges, and we are 
uniquely placed to do so.
    It is critical that our diplomats receive intelligence and 
analytic support that both informs current operations and looks 
beyond the horizon at broader strategic dynamics, such as the 
effects of our democratization efforts--a key element in 
Transformational Diplomacy--on regional political stability. 
INR seeks to identify threats, challenges and opportunities at 
an early stage to provide policymakers time to take appropriate 
action. I think an ounce of diplomacy is worth a pound of 
kinetic solution.
    In sum, the complexities of the world in which we live have 
blurred traditionally discrete lines among security interests, 
development efforts, economic objectives, and other traditional 
areas of diplomatic and analytic endeavor. Consequently, INR 
and the Department of State are repositioning resources to 
focus on and support Transformational Diplomacy.
    For example, the Department aims both to increase U.S. 
diplomatic presence in more remote locations and prepare to 
react to a wide variety of humanitarian crises, including 
refugee flows, pandemics and natural disasters. Naturally, INR 
must be ready to respond at a moment's notice and provide the 
intelligence support necessary to address those challenges.
    Yet in an era of almost instant global awareness, the 
impact of our actions in one area can now be felt, or at least 
perceived, almost immediately elsewhere. Thus, analytical 
intelligence support is critical to an accurate understanding 
of the environment in which diplomatic initiatives are 
undertaken. INR is working within the Department and with our 
embassies and other posts abroad to help policymakers both 
anticipate emergent crises and understand their long-term 
repercussions.
    INR's Humanitarian Information Unit, or HIU, for example, 
shares broadly unclassified information via a Web-based 
platform to facilitate coordination between U.S. Government 
civilian and military resources and private sector humanitarian 
response groups and NGOs. The HIU is an excellent example of an 
open source intelligence force multiplier.
    An informed understanding of the perceptions of U.S. 
policies and actions on the part of foreign publics and 
governments is prerequisite both to deciphering and 
comprehending the nature of the global environment, including 
potential and actual threats. Such knowledge is also critical 
to anticipating potential reactions to our policy initiatives 
and receptivity to offers of assistance generally and in crisis 
situations.
    To that end, INR conducts public opinion polling and focus 
group surveys throughout the world in order to gauge how U.S. 
policies are perceived, as well as how individuals in key 
countries perceive the role and behavior of their own 
governments. The sharper our understanding of the forces that 
drive those perceptions, the better prepared we will be to 
anticipate emergent threats.
    The crosscutting nature of the threats and challenges we 
face--especially from terrorism and weapons of mass 
destruction--requires a fresh emphasis on understanding the 
intentions and managing the behavior of a variety of groups and 
transnational actors. Regional cooperation is a key element of 
our counterterrorism strategy. Yet there are times when 
economic, political, and cultural barriers complicate or impede 
the cooperation we seek.
    Comprehensive, accurate intelligence analysis is needed to 
support policymakers in this regard, not only by identifying 
the threats but also by ensuring a full understanding of the 
strengths, weaknesses and perceptions of partners or potential 
partners so that policy is devised with the best information 
available.
    Even as we seek to understand the terrorist threats faced 
by our allies, we must also remain vigilant to emerging trends, 
not only to identify threats, but to assist in identifying new 
potential partners as well as their strengths and weaknesses. 
The threats posed by failed states points to the critical 
intersections of diplomacy, democracy promotion, economic 
reconstruction and military security. And INR analysts 
routinely monitor local and regional political dynamics, 
economic and financial developments, and shifts in military 
operations, doctrine and training. Deep analytic expertise is 
required to confidently tease apart and make sense of seemingly 
unrelated trends and anomalies in these areas, even if our 
policy colleagues might not wish to hear about them.
    To focus our perspectives and encourage analysts to look 
beyond immediately recognizable trends, INR publishes a 
quarterly report on global hot spots designed to alert the 
Secretary of State and other interested policymakers to 
potentially troublesome trends that we have detected.
    Our focus is on areas that may have received only limited 
policy attention but where significant threats may emerge in 
the future. The aim is to identify areas where diplomatic 
action could make a difference, either by shifting the 
direction of a trend to forestall a threat from manifesting, or 
by enabling actions that could mitigate the impact of a crisis.
    In our first report, published in early November last year, 
the issues raised ranged from repercussions of electoral 
fallout in Mexico to concerns about political violence in 
Bangladesh and friction between Russia and Georgia. 
Policymakers were very pleased with the product.
    In conclusion, I believe INR's abiding challenge will be 
not only to maintain our vigilant watch over those threats that 
we know present a clear danger to U.S. interests; going 
forward, we must also strive to think, analyze, and write 
strategically in order to identify the challenges and 
opportunities arising from the complex and dynamic global 
environment.
    Thank you all very much.
    [The prepared statement of Mr. Fort is on p. 77.]
    Chairman Rockefeller. Thank you very much, Assistant 
Secretary Fort.
    And now, I guess our veteran is the Director of the FBI, 
whom we as a Committee very greatly welcome--Bob Mueller.

  STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR, FEDERAL 
                    BUREAU OF INVESTIGATION

    Director Mueller. Thank you, Mr. Chairman, and good 
afternoon, Mr. Chairman, Senator Bond, Members of the 
Committee.
    As you've heard from my colleagues, successes in the war on 
terrorism in the past 12 months and the arrest of many key al-
Qa'ida leaders and operatives have diminished the ability of 
that group to attack the U.S. homeland. But at the same time, 
the growing Sunni extremist movement that al-Qa'ida spearheaded 
has evolved from being directly led by al-Qa'ida to being a 
global movement that is able to conduct attacks independently.
    And as a result, the United States faces two very different 
threats from international terrorism--first, the attack 
planning that continues to emanate from core al-Qa'ida 
overseas, and second, the threat posed by homegrown, self-
radicalizing groups and individuals inspired, but not led by 
al-Qa'ida who are already living in the United States. And 
while they share a similar ideology, these two groups pose very 
different threats due to the differences in intent and their 
attack capability.
    First, al-Qa'ida. Al-Qa'ida's strategy for conducting an 
attack inside the United States continues to include proven 
tactics and tradecraft with adaptations designed to address its 
losses and our enhanced security measures. For example, we 
believe that al-Qa'ida is still seeking to infiltrate 
operatives into the United States from overseas, those who have 
no known nexus to terrorism and using both legal and possibly 
illegal methods of entry.
    We also believe, if it can, al-Qa'ida will obtain and use 
some form of chemical, biological, radiological, or nuclear 
material, if it can get it.
    Al-Qa'ida's choice of targets and attack methods will most 
likely continue to focus on economic targets such as aviation, 
the energy and mass transit sectors, soft targets such as large 
public gatherings, and symbolic targets such as monuments and 
government buildings.
    Second, the homegrown threat. In contrast to the threat 
from al-Qa'ida, it is critical to be aware of the differences 
in intent and capability in order to understand and counter the 
so-called homegrown threat. We have disrupted several 
unsophisticated, small-scale attack plans recently that reflect 
the broader problem homegrown extremists pose.
    Just over a year ago, we disrupted a homegrown Sunni 
Islamic extremist group in California known as the JIS, or 
Assembly of Authentic Islam. This group was primarily operating 
in State prisons without apparent connections or direction from 
outside the United States and with no identifiable foreign 
nexus. Members of this group committed armed robberies in Los 
Angeles with the goal of financing terrorist attacks against 
the enemies of Islam, including the U.S. Government and 
supporters of Israel.
    Last year, the FBI along with other Federal agencies and 
our foreign partners, dismantled a global network of extremists 
operating primarily in Canada and on the Internet and 
independently of any known terrorist organization. The 
associates of this group who were in Atlanta, Georgia had long-
term goals of creating a network of extremists in preparation 
for conducting attacks, possibly inside the United States.
    The diversity of homegrown extremists and the direct 
knowledge they have of the United States makes the threat they 
pose potentially very serious. As well, the radicalization of 
some U.S. Muslim converts is of particular concern to us as we 
look at this threat.
    The threat from other terrorist groups inside the United 
States. While al-Qa'ida, its affiliates, and independent 
Islamic jihadist groups remain the primary threat to the U.S. 
homeland, other groups such as Iranian-supported Lebanese 
Hizballah warrant attention due to their ongoing fundraising, 
recruitment, procurement and capability to launch terrorist 
attacks inside the United States.
    As seen in the summer 2006 conflict with Israel, Hizballah 
has a well-trained guerilla force that is proficient in 
military tactics and weaponry and capable of striking U.S. 
interests. To date, Hizballah has not conducted an attack 
within the U.S. homeland. Instead, Hizballah associates and 
sympathizers primarily engage in a wide range of fundraising 
avenues to include criminal activities such as money 
laundering, credit card, immigration, food stamp and bank 
fraud, as well as narcotics trafficking in order to provide 
support to Hizballah.
    Our efforts to stem the flow of material and monetary 
support to Hizballah over the past few years has led to 
numerous Federal indictments resulting in the arrests of 
suspected Hizballah supporters and approximately $5 million in 
property seizure and court ordered restitution.
    I would say also that Iran continues to present a 
particular concern due to its continued role as a state sponsor 
of terrorism, its development of its nuclear program, and 
commitment--its commitment to promoting an Iranian-inspired 
extreme version of Shi'a Islam within the United States.
    Iran is known to support terrorist groups such as 
Hizballah, Iraqi Shi'a insurgency groups, and non-Shi'a 
Palestinian terrorist organizations.
    Additionally, the ongoing factional in-fighting between 
Hamas and Fatah elements in the Palestinian territories has for 
now--for now--consumed the attention of most of the Palestinian 
organizations. But the primary focus of U.S.-based Palestinian 
groups remains fundraising and proselytizing.
    Let me turn for a moment, if I might, Mr. Chairman, to the 
threat posed by domestic terrorist groups. While much of the 
national attention is focused on the substantial threat posed 
by international terrorists, we must also contend with an 
ongoing threat posed by domestic terrorists based and operating 
strictly within the United States.
    Domestic terrorists, motivated by a number of political or 
social issues, continue to use violence and criminal activity 
to further their agendas. Despite the fragmentation of white 
supremacist groups resulting from the deaths or the arrests of 
prominent leaders, violence from this element remains an 
ongoing threat to government targets, to Jewish individuals and 
establishments, and to non-white ethnic groups.
    The militia movement similarly continues to present a 
threat to law enforcement and the judiciary. Members of these 
movements will continue to intimidate and sometimes threaten 
judges, prosecutors, and other officers of the court.
    Lastly here, animal rights extremism and eco-terrorism 
continue to pose a threat. Extremists within these movements 
generally operate in small, autonomous cells and employ strict 
operational security tactics making detection and infiltration 
difficult. And these extremists utilize a variety of tactics, 
including arson, vandalism, and the use of explosive devices. 
They continue to remain a threat.
    Let me turn for a second, if I might, to a subject 
discussed by my colleagues, and that's the WMD acquisition by 
terrorist groups. It continues--particularly the acquisition by 
terrorist groups--to be a growing concern. Transnational and 
domestic terrorists and state sponsors of terrorism continue to 
demonstrate an interest in acquiring and using chemical, 
biological, radiological, and nuclear weapons commonly called 
CBRN. And these weapons are advantageous to them because the 
use of one causes mass casualties, mass panic, and economic 
disruption.
    And while one could say that terrorist groups may not now--
now--have the capacity or the capability to produce complex 
biological and chemical agents needed for a mass-casualty 
attack, their capability will improve as they pursue enhancing 
their scientific knowledge base, including recruiting 
scientists to assist them. Currently, terrorist groups have 
access to relatively--and I'd say relatively--simple chemical 
and biological agent recipes through the Internet and through 
publications such as ``The Anarchist Cookbook.''
    In addition to the acquisition of weapons of mass 
destruction by terrorists--which is a concern I just 
described--we are also concerned about WMD proliferation.
    The U.S. Government has identified 21 countries of which 
Iran, North Korea, and China are of great concern--identified 
them as having the capability either to develop WMD systems or 
acquire export-controlled WMD and dual-use items and sensitive 
technologies.
    From an operational perspective, the Bureau and our 
counterparts at DHS and the Department of Commerce have had 
success in conducting joint investigations leading to the 
arrests of individuals for violations of U.S. export laws, and 
we have also together produced intelligence in support of 
national intelligence collection requirements in this arena. 
And this resulting information has enabled the community 
together to better understand the threat to national security 
from foreign government exploitation of international commerce.
    While preventing another terrorist act on U.S. soil is the 
FBI's primary mission, protecting the United States from 
espionage and foreign intelligence operations is also of vital 
importance.
    Recent investigative successes highlight the fact that 
foreign governments continue to target the United States for 
sensitive and classified information and technology. In 2006, 
the Bureau arrested 20 individuals on espionage-related 
charges, and also disrupted foreign intelligence operations.
    The recent arrests of a U.S. defense contractor and his co-
conspirators for passing sensitive weapons technology to the 
People's Republic of China confirms that foreign states are 
using nontraditional actors and methods to collect classified, 
sensitive, and commercially valuable proprietary information 
and technology.
    Other FBI investigations revealed trusted insiders 
compromising classified or sensitive information to a wide 
range of U.S. allies.
    Finally, Mr. Chairman--I am getting to the end--finally, 
Mr. Chairman, the Bureau is concerned by cybersecurity threats 
which may come from a vast array of groups and individuals with 
different skills, motives, and targets. The Nation's security, 
economy, and emergency services rely on the uninterrupted use 
of the Internet and telecommunications to ensure the continuity 
of military operations, financial services, transportation and 
the energy infrastructure.
    Terrorists increasingly use the Internet to communicate, 
conduct operational planning, proselytize, recruit, train, and 
to obtain logistical and financial support. That is a growing 
and increasing concern for us, Mr. Chairman.
    Let me close by saying that we're working closely with our 
partners in the intelligence, military, diplomatic, law 
enforcement communities, and our primary responsibility remains 
the neutralization of terrorist cells and operatives here in 
the United States and the dismantlement of terrorist networks 
worldwide. And while this is our first priority, we remain 
committed to the defense of America against foreign 
intelligence threats, as well as to the enforcement of Federal 
criminal laws, all while respecting and defending the 
Constitution.
    Thank you, Mr. Chairman, for the opportunity to present 
these remarks today, and I'd be happy to answer any questions 
you might have.
    [The prepared statement of Director Mueller is on p. 82.]
    Chairman Rockefeller. Thank you, Mr. Director, very much.
    Let me just explain that a vote just went off, and it's 
going to be our first real test of bipartisanship here because 
Majority Leader Reid has now reduced votes to 15 minutes, so 
we'll see how things are going. If Kit Bond gets back in 8 
minutes, you'll know that I'm done. [Laughter.]
    Chairman Rockefeller. Mr. Director, thank you very much, 
and I want to proceed now to the Director of the Defense 
Intelligence Agency, Lieutenant General Michael Maples. We 
welcome your testimony, sir. And I apologize for the ways of 
the Senate.

 STATEMENT OF LIEUTENANT GENERAL MICHAEL D. MAPLES, DIRECTOR, 
                  DEFENSE INTELLIGENCE AGENCY

    General Maples. Chairman, I understand.
    Chairman Rockefeller, I do appreciate this opportunity to 
appear before the Committee to testify and to thank you for 
your continued support to the dedicated men and women of the 
Defense Intelligence Agency.
    My testimony--which I have submitted for the record--
outlines our assessment of the states of the insurgencies in 
Iraq and Afghanistan, the current threat from global terrorism, 
and proliferation of weapons of mass destruction. It also 
addresses defense-related developments in states and regions of 
concern and other transnational issues. As you requested, I 
will summarize a few of these issues.
    In Iraq, we have seen some recent developments that give 
hope for progress. These include the continued development and 
increased capability of the Iraq security forces, efforts to 
address problems associated with de-Ba'athification, and 
increased cooperation between Sunni Arab tribes and the 
government in al-Anbar province.
    Additionally, Prime Minister Maliki has made gestures to 
the Sunni minority such as offers to reinstall some Saddam-era 
military leaders and the issuance of arrest warrants for 
Ministry of Interior personnel accused of abuses. Some rogue 
elements from Muqtada al-Sadr's movement have also been 
expelled from his organization.
    Despite these developments, significant challenges to U.S. 
and coalition forces remain. Violence in Iraq, as measured over 
the past year, continued to increase in scope, complexity, and 
lethality with the Sunni Arab-based insurgency gaining strength 
and capacity. The conflict remains a sectarian struggle for 
power and the right to define Iraq's future identity.
    We have noted a change in the character and the dynamics of 
the conflict. The perception of unchecked violence is creating 
an atmosphere of fear, hardening sectarianism, empowering 
militias and vigilante groups, and undermining confidence in 
government and security forces.
    Conflict in Iraq is in a self-sustaining cycle in which 
violent acts increasingly generate retaliation. Insecurity 
rationalizes and justifies militias, in particular Shi'a 
militias which increase fears in the Sunni Arab community. The 
result is additional support, or at least acquiescence, to 
insurgents and terrorists such as al-Qa'ida in Iraq.
    Shi'a militants, most notably Jaish al-Mahdi, are also 
responsible for increases in violence.
    Attacks by terrorist groups account for only a fraction of 
insurgent violence, yet the high-profile nature of their 
operations and the tactics they employ have a disproportionate 
impact. Al-Qa'ida in Iraq is the largest and the most active of 
the Iraq-based terrorist groups.
    DIA judges that continued coalition presence is the primary 
counter to a breakdown in central authority. Such a breakdown 
would have grave consequences for the people of Iraq, stability 
in the region, and U.S. strategic interests.
    No major political figure in Iraq has endorsed the notion 
of civil war or partition, and most political and religious 
leaders continue to restrain their communities. Moreover, DIA 
judges that Iraqi Arabs retain a strong sense of national 
identity and most Iraqis recall a past in which sectarian 
identity did not have the significance that it does today.
    Intelligence support to our forces engaged in combat in 
Iraq is our highest priority. We have more than 300 analysts 
dedicated to the complexities of Iraq, including a cadre of 49 
analysts who are focused exclusively on the insurgency. Many of 
our human intelligence collectors in Iraq have made multiple 
deployments and are experienced in contingency operations.
    As the complexity of the situation is increasing--and it is 
changing--we are likewise increasing the resources devoted to 
our support.
    In Afghanistan, the Taliban-led insurgency is a capable and 
resilient threat to stability, particularly in the Pashtun 
south and east. Despite absorbing heavy combat losses in 2006, 
the insurgency has strengthened its military capabilities and 
influence with its core base of rural Pashtuns. Overall, 
attacks doubled in 2006 from the previous year. And suicide 
attacks quadrupled from 2005 levels, and large-scale operations 
increased significantly as well. DIA assesses the Taliban-led 
insurgency will remain a threat in 2007, and its attacks will 
increase this spring.
    Al-Qa'ida remains the most dominant terrorist organization 
and the most significant threat to U.S. interests worldwide. 
Al-Qa'ida's increasing cooperation with like-minded groups has 
improved its ability to facilitate, support, and direct its 
objectives.
    Al-Qa'ida in Iraq is the largest and most deadly of the 
Iraq-based terrorist groups. It conducts the most provocative 
anti-Shi'a attacks in Iraq, a hallmark of its strategy since 
2003. It has instigated cycles of sectarian violence by 
characterizing its operations as defending Sunni interests.
    Al-Qa'ida, in Iraq, poses a regional threat and aspires to 
become a global threat.
    Pakistan's direct assistance has led to the eradication or 
capture of numerous al-Qa'ida terrorists. Nevertheless, 
Pakistan's border region with Afghanistan remains a haven for 
al-Qa'ida's leadership and other extremists.
    After global terrorism, the proliferation of weapons of 
mass destruction remains the most significant threat to our 
homeland, deployed forces, allies and interests. Increased 
availability of information together with technical advances 
have the potential to allow additional countries to develop 
nuclear, biological and chemical weapons. This is an area of 
increasing concern.
    North Korea's October 2006 detonation of a nuclear device 
marked its first nuclear test and an attempt to win 
international recognition as a nuclear state after a decades-
long program to develop these weapons.
    Iran also continues to develop its WMD capabilities. 
Although Iran claims its program is focused on producing 
commercial capabilities, DIA assesses with high confidence that 
Iran remains determined to develop nuclear weapons.
    DIA expects China's nuclear weapons stockpile to grow over 
the next 10 years.
    Chairman Rockefeller. General.
    General Maples. Yes, sir.
    Chairman Rockefeller. I ask you to rescue me from a 
delicate situation.
    The votes last for 15 minutes; there are only 5\1/2\ 
minutes left in this one. So people will be back immediately. 
We then go into questions. And we want to be able to do that, 
and I apologize for the inconvenience; I truly do.
    So we're in recess for the moment.
    [The prepared statement of General Maples is on p. 91.]
    [A brief recess was taken.]
    Vice Chaiman Bond [presiding]. My apologies to the General 
for missing his testimony. I will look forward to reading it in 
full. The Chairman has graciously suggested that since we have 
a long afternoon and he has now had to go over to vote that I 
will begin my questions and see if I can get 5 minutes on the 
timing machine.
    Let me ask a quick question for a short answer. We have in 
the past been myopic in view of the threats prior to 9/11. We 
look at other terrorist-affiliated organizations beyond al-
Qa'ida. You've talked about Hizballah, Sunni insurgents in 
Iraq, about Jemaah Islamiyah from Southeast Asia.
    What are your assessments of the threat that the groups 
pose to the U.S. homeland? And what do you feel you're able to 
do to build on that and to have your analysts challenge the 
assumptions that you're making--exploring the possibilities to 
change tactics against strikes on the U.S. soil?
    Director Mueller has talked about what they're doing. What 
are the others of you doing to feed into that process?
    General Hayden. Senator, I'll start. As you know, our CTC--
as I described in my remarks--is a large center. I've been very 
impressed in my time at the agency with their deep expertise. 
Many of the leaders of that center have been involved in this 
now well before 9/11. They do try--and I don't want to 
overstate this, but I think they do try to be very imaginative 
in terms of are we looking at the right things. Are there other 
things out there we're not aware of?
    Vice Chaiman Bond. You're fully integrating that with the 
FBI's information? Is that fully integrated?
    General Hayden. That's right, Senator. When I meet with 
those folks, we have FBI people in the room because they are 
permanently on the staff.
    Vice Chaiman Bond. And Homeland Security?
    General Hayden. Yes, sir. And NCTC, as well.
    Vice Chaiman Bond. All right.
    You have an excellent operation, and we appreciate having 
knowing what you're doing there.
    Let me ask a broader question. I have heard a lot of 
comments about--and there will be legitimate questions raised 
about the policy that the President has announced in going 
forward with the commitment by the Prime Minister, al-Maliki to 
take control of Iraq. And I think we will want to hear your 
assessments of that--of the intelligence assessments of the 
success of that.
    At the same time, what concerns me is what are the options? 
The one option that I have heard most frequently and strongly 
supported is to withdraw--to withdraw now essentially, or very 
shortly, regardless of the security situation in Iraq.
    What in your judgment would happen? I'll start with you, 
Director Negroponte. What would happen if we pulled out now 
from Iraq?
    Director Negroponte. Well, we've looked at that question, 
and we've tried to assess it, Senator. And I think the view 
pretty much across the community is that a precipitous 
withdrawal could lead to a collapse of the government of that 
country and a collapse of their security forces because we 
simply don't think that they are ready to take over, to assume 
full control of their security responsibilities.
    We think that that is a goal that can be achieved on a 
gradual basis and on a well-planned basis, but to simply 
withdraw now, I think could have catastrophic effects. And I 
think that's a quite widely held view inside of Iraq itself.
    Vice Chaiman Bond. I want to know what the impact of that 
is. Does that affect just the Middle East? Does it affect us? 
And I'd like to hear from General Maples and General Hayden on 
that as well.
    Director Negroponte. If I could just add one point before 
ceding to them, I think in terms of al-Qa'ida's own planning, 
if you look at the letter that Zawahiri wrote to Zarqawi last 
year about establishing in Iraq sort of a beachhead for the 
expansion of al-Qa'ida's ideology throughout the Islamic world, 
establishing the caliphate, it would be the very sanctuary for 
international terrorism that we are seeking to avoid.
    Vice Chaiman Bond. General Maples.
    General Maples. Sir, I'd follow up on that statement by the 
Ambassador because I truly believe that a failure in Iraq would 
empower the jihadist movement. It would give that base of 
operations from which the jihadist movement would expand. And 
it's consistent with the goals of al-Qa'ida in Iraq to 
establish that Islamic state and then to expand it into the 
caliphate.
    I also think that there, of course, will be very 
significant regional impacts, both in terms of stability and to 
other countries in the region; there will be economic impacts 
with respect to, in particular, hydrocarbons and the effect 
that that could have, particularly if those resources were in 
the hands of jihadists.
    Vice Chaiman Bond. In other words, they could get the 
profit off of the high price of oil.
    General Maples. Absolutely. And then I would follow with 
one last--and that is the empowerment, further empowerment of 
Iran within the region.
    Vice Chaiman Bond. General Hayden.
    General Hayden. Yes, sir, Senator. When I went before the 
Iraq Study Group, I prefaced my remarks by saying: I think I'm 
going to be giving a rather somber assessment of the situation 
in Iraq, but before I do that, I said, let me tell you, if we 
leave under the current circumstances, everything gets worse.
    Vice Chaiman Bond. You have a masterful way of understating 
it.
    General Hayden. Three very quick areas: More Iraqis die 
from the disorder inside Iraq; Iraq becomes a safe haven, 
perhaps more dangerous than the one al-Qa'ida had in 
Afghanistan; and finally, the conflict in Iraq bleeds over into 
the neighborhood and threatens serious regional instability.
    Vice Chaiman Bond. Any threat, do you see--what threat to 
the U.S. homeland?
    General Hayden. The immediate threat comes from providing 
al-Qa'ida that which they are attempting to seek in several 
locations right now, be it Somalia, the tribal area of 
Pakistan, or Anbar province--a safe haven to rival that which 
they had in Afghanistan.
    Vice Chaiman Bond. All right. My time is up, and now turn 
to the Senator from Oregon.
    Senator Wyden. Thank you very much, Mr. Chairman.
    The President said last night, Director Negroponte, that a 
major part of his plan for Iraq involves relying on Iraqi 
national police brigades. Can you tell us how many of these 
Iraqi national police units are capable of functioning 
independently today?
    Director Negroponte. I can't give you those exact numbers. 
Perhaps General Maples has them. But what I would say as a 
general proposition is that the army of Iraq is better equipped 
to deal with these situations than the police, although there 
are some police units that have acquitted themselves well. And 
I think that's going to take time to develop.
    But that's one of the reasons that at the same time the 
President talked about strengthening our advisory effort and 
strengthening the effort to embed American units within Iraqi 
security units.
    So it's a package, if you will Senator, so as to deal with 
some of the training and experience shortcomings that these 
units have. But I think over time, I think that the plan has a 
reasonable chance of succeeding.
    Senator Wyden. When we go to closed session, either tonight 
or in the future, I'm going to ask you some more about that. 
But put me down as saying I think you have, once again, 
confirmed the rosy-scenario analysis with respect to that last 
comment.
    Now this morning, Secretary Rice outlined a plan to 
increase the number of provincial reconstruction teams that 
operate in Iraq. Now, Senator Snowe and I visited one of these 
teams last year, and as far as I could tell, it was made up of 
very dedicated, intelligent people who so far haven't been able 
to accomplish a whole lot. Have we seen, based on your 
analysis, any reduction in attacks in areas where these 
provincial teams are in operation?
    Director Negroponte. I don't know the answer to that 
question, Senator. But what I would say is that it is important 
in terms of restoring and holding areas that have been cleared, 
where forces have gone that there be something other than just 
the security element as well.
    So what the PRT concept is designed to address is the need 
for follow-up once a situation has been stabilized from a 
security point of view. So I think it's a very sound concept.
    Senator Wyden. Director, tell me if you would, how can 
there be confidence, as Members of this Committee look at this, 
when you can't give me information about how it's worked in the 
past? And Senator Snowe and I go on a visit, we're impressed by 
the people's intelligence and dedication, but it doesn't look 
like they're accomplishing much.
    Director Negroponte. To be honest with you, I'd have to 
defer to the Department of State and those responsible for 
directing the PRTs. We worry about the threat situation, the 
terrorism, al-Qa'ida, Ansar al-Sunna and so forth. So we 
haven't done that particular assessment that you mentioned.
    Senator Wyden. I think I have time for one other area. I'm 
very troubled about the Iranian links with Iraq. And I've 
recently been getting some very troubling reports from active 
duty military personnel who believe that Iran is supplying 
Iraqis with explosive devices that are now killing our 
courageous troops. They're of course known as these EFPs, the 
explosively formed projectiles. And the concern from the 
soldiers is that the sophisticated nature of the devices, as 
well as the fact that they are mainly used in Shi'a areas of 
Iraq, suggests that they're coming in from Iran.
    Do you and perhaps General Hayden have any views with 
respect to this?
    Director Negroponte. I think that what you have just said 
is generally true, Senator.
    General Hayden. That's very consistent, Senator, with our 
analysis. We believe that to be true. The EFPs are coming from 
Iran. They are being used against our forces. They are capable 
of defeating some of our heaviest armor, and incident-for-
incident, cause significantly more casualties than any other 
improvised explosive devices do. They are provided to Shi'a 
militia. That's all correct.
    Senator Wyden. I'm going to see if I can get one other 
question in, Director Negroponte.
    In your view, Director, does the Iranian government want to 
see a full-blown civil war in Iraq?
    Director Negroponte. Sir, I think this is a question where 
I don't think we really fully understand. The judgment of the 
community in the past has been that Iran wants an Iraq that is 
not a threat to it; they want to support a Shi'a-dominated 
Iraq, and that they want a stable Iraq. They don't want it to 
fall apart. They don't want a country that's on its borders 
just to fall apart into various parts. That's been the view.
    But one has to wonder why it is that they have increased 
their supply of these kinds of lethal weapons to extremist 
Shi'a groups in Iraq, provoking violence, attacks on coalition 
forces, and others. And one wonders if their policy toward Iraq 
may not have shifted to a more aggressive posture than it has 
been in the past.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Rockefeller [presiding]. Thank you, Senator.
    I'd like to ask four questions of each of you, and I would 
hope that your answers would be short, because I think they're 
the kinds of questions that should elicit that. And they're 
very direct.
    Starting with you, Director Negroponte, is the presence of 
al-Qa'ida and affiliated terrorists greater in Iraq today than 
prior to the war?
    Director Negroponte. Prior to the war?
    Chairman Rockefeller. Prior to the war.
    Director Negroponte. Yes. I would say that would be the 
case.
    General Hayden. Yes, sir.
    Randy.
    Mr. Fort. Yes.
    Director Mueller. Yes.
    Chairman Rockefeller. OK. Is it your assessment that al-
Qa'ida and other extremist groups have used our invasion and 
continued military presence in Iraq as an effective recruiting 
tool to grow their ranks?
    Director Negroponte. I don't know whether that is as much 
of a recruiting tool for al-Qa'ida, as maybe some of the 
insurgent forces inside of Iraq; in other words, I don't think 
that----
    Chairman Rockefeller. I'm asking about al-Qa'ida.
    Director Negroponte. I'm not certain.
    Chairman Rockefeller. General.
    General Hayden. Our NIE, Senator, talked about Iraq being a 
cause celebre for global jihadism. They certainly use and 
misuse the images from Iraq. I would add, though, that as the 
war goes on, even al-Qa'ida in Iraq is taking on an 
increasingly Iraqi identity.
    Chairman Rockefeller. Mr. Fort.
    Mr. Fort. I would associate myself with General Hayden's 
comments.
    Chairman Rockefeller. Director Mueller.
    Director Mueller. Yes.
    General Maples. I would say an increase in jihadists and 
extremists; it has grown.
    Chairman Rockefeller. Thank you, gentlemen.
    The third question is, is it your assessment that our 
actions in Iraq have contributed to the spread of Islamic 
extremism and the growth of self-radicalized terrorist groups 
and cells?
    Director Negroponte. You mean outside of Iraq?
    Chairman Rockefeller. In or out.
    Director Negroponte. I think, as the General said, it's 
become a cause celebre. But I'm not sure that if you look at 
other parts of the world, I don't see a dramatic growth in al-
Qa'ida's capabilities. I think they've managed to dig in. I 
think they've managed to sustain themselves. But I wouldn't say 
that there's been a widespread growth of Islamic extremism 
beyond Iraq; I really wouldn't.
    I think the threat's still there.
    Chairman Rockefeller. If one were to go beyond al-Qa'ida to 
affiliated types of groups, not strictly al-Qa'ida----
    Director Negroponte. Yeah. It's not clear to me that Iraq 
is what necessarily motivates it. For example, the London--the 
July 7 incident of about a year ago, July of 2005--I'm not sure 
that Iraq had particular influence on those homegrown 
extremists who'd gone back to Pakistan and then come back to 
England to carry out terrorist activity.
    I think that there's a diversity, a complexity of motives. 
It's a rejection of globalization; it's anger and frustration 
with the West. It's a whole number of things--the lack of 
responsiveness of Middle Eastern and Islamic governments to the 
aspirations and needs of their peoples. It's not exclusively 
Iraq-based, in my opinion.
    Chairman Rockefeller. Thank you, Mr. Director. Careful 
answer.
    General Hayden.
    General Hayden. Sir, I think I'm in the same place as the 
Ambassador. It is used. Clearly it's used. If you go to 
jihadist Websites, you can see the themes. But there are a 
variety of themes that they use, whether it's the Palestinian 
territories, whether it's Hizballah and the Israelis in 
Lebanon, whether it's the nature of Arab states. So it all 
contributes to their recruitment effort. It's hard to connect 
the dots as to what contributes to specific radicalization.
    Chairman Rockefeller. OK. I'm surprised.
    Mr. Fort.
    Mr. Fort. Echoing some of the comments, I think it's a key 
thread in the tapestry, but it is a tapestry of all of the 
factors that my colleagues have mentioned, plus Afghanistan, 
plus perceived U.S. hegemony in any number of areas.
    I think you have to look at individual groups and 
grievances. The Salafists in Algeria, are they really being 
driven by what's going in Iraq? Is the CIC in Somalia really 
being driven by what's going on in Iraq? There are any number 
of local conditions and regional conditions that may drive 
individual groups, but clearly it is having a factor.
    But you know, just to say off the top of my head, it would 
be very difficult to ascribe solely to that one particular 
factor--that being, you know, the exacerbent of choice. I think 
we'd have to really sort of try to disaggregate the groups and 
their particular issues to come up with a really thoughtful 
answer to that question.
    Chairman Rockefeller. Hamburg would be included in your 
response?
    Mr. Fort. In what sense, Senator? I'm sorry.
    Chairman Rockefeller. Well, that they were not in some way 
influenced by what was going on in Iraq.
    Mr. Fort. When you say Hamburg, I'm not sure what you're 
referring to.
    Chairman Rockefeller. Forget it.
    Mr. Mueller.
    Director Mueller. I like the tapestry analogy. I think this 
is a more difficult question in terms of contributions. And 
certainly al-Qa'ida makes use of the fact that we are in Iraq, 
but it does not escape us that we were neither in Afghanistan, 
nor in Iraq at the time of 1993 attempted bombings--the Cole 
bombings, the East African bombings, the September 11 bombings.
    And so yes, while it is used as a recruitment tool now, we 
can't forget that this philosophy, this ideology pre-dated our 
going into either Afghanistan or Iraq.
    Chairman Rockefeller. Thank you, sir.
    General Maples.
    General Maples. Sir, I believe that the jihadist movement 
is growing both in numbers and in dispersion around the world. 
There are a variety of factors that lend to that--governance, 
societal, cultural, youth in Islam, opportunity, certainly 
presence in Iraq, Afghanistan; U.S. actions probably contribute 
in some way to that. But I think there are a wide number of 
factors that are affecting the jihadist movement.
    Chairman Rockefeller. All right.
    I don't actually have the time to do my second questions, 
so that would be, then, Senator Bond.
    Vice Chaiman Bond. Thank you, Mr. Chairman.
    One of the things I have been a firm believer in is the 
value of HUMINT. And I think that when we gutted our HUMINT 
capability in the mid-1990s we reaped a whirlwind. We did not 
have good HUMINT when we went into Iraq, and it takes a long 
time to catch up to employ, field, train, and utilize 
collectors.
    I'd like to know from, I guess, the Director and the 
General primarily, how do you judge the state of our HUMINT 
collection in Iraq and against the hard targets like Iran and 
North Korea? What are you doing to improve on it? Are you 
making an effort to bring into the agencies greater numbers of 
ethnically diverse officers from areas to which we seek access 
who could speak the language and relate to the people in those 
areas?
    Director Negroponte. Just to tee it up for General Hayden, 
sir, first of all--and limited by what we can say in an 
unclassified setting----
    Vice Chaiman Bond. Yes, yes. I don't ask the names and 
addresses, you know.
    Director Negroponte. The President gave us an order in 2004 
to increase our HUMINT capabilities by 50 percent, and we're, I 
think, well on our way to achieving that. So that would be the 
first point.
    Secondly, I think that in addition to building capabilities 
in the Central Intelligence Agency, as part of our intelligence 
reform, I designated General Hayden to be the HUMINT manager 
for the entire intelligence community so that we're now 
starting to build common analytic and tradecraft and 
recruitment and other standards, source evaluation standards 
and so forth, not only for the CIA, but for the other HUMINT 
players in the community--the Defense HUMINT service, the FBI, 
and so forth.
    So I think we're really making a lot of progress in this 
area. But if I could turn it over to General Hayden----
    General Hayden. Senator, I look forward in some future 
closed session to talking about some of the initiatives, and I 
think you'll be heartened by what's going on. I'm certain 
you'll be heartened by the trajectory, by the direction in 
which we're heading and things that are being improved.
    You'll probably be a bit impatient, like all of us are at 
the table, with some of the velocity. But even there I think 
we're gaining speed. That's in terms of diversity and 
penetration of very hard targets, and again, I look forward to 
briefing the Committee on that.
    On the other matter the Ambassador brought up, I think it's 
very important that we have this national HUMINT manager role. 
I fulfill that for the Ambassador.
    Just one quick example. In our tradecraft courses that have 
traditionally been only for CIA case officers, General Maples 
will have more than a couple of dozen folks inside each one of 
those courses. Director Mueller will have some number of folks 
inside each one of those courses, as well. I think that just 
sets the groundwork for future improvements.
    Vice Chaiman Bond. We'll follow up later on that. I also 
note, Mr. Ambassador, that when you talked about worldwide 
threats, it seemed that an area I've spent some time in--
Southeast Asia--with its Jemaah Islamiyah, ASG, MILF, and the 
training areas in the southern Philippines, Indonesia, 
Malaysia, Thailand are no longer a threat. So I was just a 
little concerned that that dropped out.
    Director Negroponte. Well, as I mentioned in my comments, I 
just didn't have time to hit all of my points in 20 minutes.
    Vice Chaiman Bond. I understand. But it would be helpful to 
have a written report on such, if you think it is still a 
threat, which I believe it is.
    Director Negroponte. Yes, and we do do that. We believe it.
    Vice Chaiman Bond. I want to give General Maples an 
opportunity. The Iraq Study Group made several surprising, 
shocking comments, and it said that fewer than 10 analysts at 
DIA have more than 2 years experience; the IC is under-
reporting violence in Iraq. The study group even suggested you 
may be cooking the books; it says good policy is difficult to 
make when information is systematically collected in a way that 
minimizes its discrepancy with policy goals.
    I'd like to ask you if you would clarify that, and maybe 
General Hayden would have a thought on it, because I think that 
one warrants a response on the record.
    General Maples. Thank you, sir. I appreciate that 
opportunity.
    In my comments I did remark that right now the Defense 
Intelligence Agency has well over 300 analysts who are focused 
on Iraq, to include 49 who are dedicated to the insurgency 
itself. So the number was wrong, and I know how it came about 
in terms of the reporting.
    But the number is not the issue for me--it is an issue--but 
the real issue is, what kind of capability and capacity do we 
really need to have in the community in order to do what needs 
to be done with respect to our analysis and our support in 
Iraq?
    And I think we need to increase that capability. We need to 
increase that capacity, and particularly with the changes that 
are going on right now, the complexities that we have in Iraq, 
and a change in direction in terms of counterinsurgency, we 
need to increase intelligence capabilities, and we're working 
that right now with both Multinational Forces Iraq, CENTCOM, 
and the intelligence community. We've all gathered together to 
try to focus our analytic effort on the changed conditions.
    So the answer to the question is that the specific number 
was wrong, but the conclusion about increasing the capacity and 
our focus on the complexities in Iraq I do believe we need to 
do.
    General Hayden. Senator, like any commander, you have to 
decide what your main effort is and where you have economy of 
force. It's the same in intelligence collection, and of course 
it applies to Iraq as well.
    I can give you a real brief summary of how it has evolved. 
The first effort was against al-Qa'ida and the Sunni 
rejectionists and the insurgency. I think we have actually done 
very well in that and understand it very well. The success of 
our forces in Anbar is a reflection of that.
    And then we had to shift our weight to better understand 
what's happened in the past 15 months, which is this growth of 
factional fighting, not Sunni rejectionists but Sunni, Shi'a 
and sometimes intramural between Sunnis and between Shi'a.
    And then finally, Senator Wyden, we clearly have to shift 
our weight to the issue that you raised earlier--what are the 
Iranians doing, how are they doing it, and what is it we can do 
to stop it?
    So that's been kind of the sequence for us in terms of how 
we dealt with Iraq as a target, Senator.
    Chairman Rockefeller. Senator Feingold, you have a 
question, sir.
    Senator Feingold. Thank you, Mr. Chairman.
    Our military involvement in this war in Iraq will end. It 
will end because it is preventing us from confronting urgent 
threats around the world, including places like Afghanistan and 
Somalia and the global expansion of terrorist organizations. It 
will end because our continued occupation of Iraq is making 
conditions worse. It will end because our military cannot 
sustain this commitment. And it will end because in a democracy 
like ours a war cannot go on indefinitely without the support 
of the people. So I think we need to discuss how to end our 
involvement in this war.
    Now this is not in the spirit of a precipitous withdrawal, 
and I know Mr. Negroponte referred to the problems that would 
be attendant to a precipitous withdrawal. But my questions are 
in the spirit of how do we avoid a precipitous withdrawal. How 
do we in the near term successfully do a redeployment? That's 
what I would like to hear from you about.
    What would our strategy be as we re-deploy our forces? What 
are the most--I'd like each of you to answer--what are our most 
pressing priorities in terms of U.S. national security 
interests? Is it counterterrorism? Is it the stability of our 
allies and partners in the region, refugee flows?
    Give me some sense with your expertise of what our strategy 
would be for dealing with these challenges. And how do we use 
all the tools available to us--intelligence, diplomatic, 
economic, and in a much more limited sense, military--to 
confront these challenges in a post-occupation environment?
    I would add, you know, obviously I want this to happen in 
the near term, but we're going to have to face this in any 
event, these kinds of questions. So I'm looking genuinely for 
some guidance.
    Mr. Negroponte.
    Director Negroponte. Senator, I'm not trying to cop out 
here, but I think you're asking me very much of a policy 
question. But maybe I can come at it this way.
    In my remarks earlier I said that the prospects for 
increasing stability in Iraq over the next year will depend on 
several factors, and then I mentioned the degree to which Iraqi 
government and political leaders can establish effective 
national institutions that transcend sectarian or ethnic 
interests. That was one of my points.
    The other was the extent to which extremists, most notably 
al-Qa'ida, can be defeated in their attempts to foment inter-
sectarian struggle between Sunni and Shi'a; and last, the 
extent to which Iraq's neighbors, especially Iran and Syria, 
can be persuaded to stop the flow, stop the flow of militants 
and munitions across their borders.
    So these are the kinds of factors that I think could 
contribute to an improvement in the trends, in the adverse 
trends that we describe for you in what I think is a fairly 
somber assessment of the situation in Iraq.
    But if I had to--wearing my hat now as the ex-U.S. 
Ambassador to Iraq--if I had to characterize the approach 
that's been outlined by the President in his speech yesterday, 
it's to make available now some additional resources to assist 
the Iraqis so that we can hasten the day that they will be able 
to assume responsibility for security and for the affairs of 
their country in their entirety, sooner rather than later.
    So this is a proposal designed--and I know I'm straying 
into the policy lane here, but you asked a policy question.
    Senator Feingold. Thank you. And I understand that answer.
    What I'm really getting at is assuming a policy decision is 
made to re-deploy these troops--let me turn to General Hayden 
for this part--what are some of the practical challenges that 
you would think of first that we should be thinking about of 
how we would do this?
    General Hayden. Again Senator, using your premise--assuming 
the policy decision is made, and I want to share Ambassador 
Negroponte's remarks--I actually think what the President 
discussed last night is creating the pre-conditions for what 
you describe.
    Assuming a policy decision is made before that takes place 
or other circumstances, two or three things must happen. Number 
one, this can't be a safe haven for al-Qa'ida. Number two, Iraq 
has to be a barrier to Iranian expansionism, not a bridge for 
Iranian expansionism. And number three, it cannot be allowed on 
a geopolitical, on a regional, or a human basis to descend into 
the human carnage of inter-sectarian violence.
    Senator Feingold. Those are the goals. What do we 
practically do? What are our priorities as we're re-deploying 
to achieve those goals?
    General Hayden. Senator, again, no disrespect intended, 
those were the very thought processes in the small group 
meetings over the past several months that we were considering. 
What the President talked about last night was what we believed 
to be the best choices available to us to achieve the kinds of 
things I just described--no safe haven, no bridge for 
expansionism, and again, finally, the inter-sectarian question 
inside Iraq.
    Senator Feingold. General Maples.
    General Maples. Sir, I would also understand this question 
as based on the premise of a policy decision. Our number one 
priority would still remain the threat of terrorism to our 
nation and to counter that terrorism wherever it may be in the 
world.
    I think regionally we would continue to look at the effect 
this would have on Iran and Iranian influence throughout the 
region and the impact that that would have on other nations and 
countries in the region, which would be significant to us as 
well.
    And then I would probably add a third one there, and that 
is the rising conventional and asymmetric capabilities of other 
nations in the world--particularly in the area of ballistic 
missiles--that continue to pose a threat to us.
    Senator Feingold. Let me follow on and say that if the 
decision were made, over a period of time, as was done with 
Somalia in the 1990s, to say that at a certain point the 
funding for the mission would no longer be there, what 
provisions would you ask us to put in such legislation in order 
to protect the troops?
    Director Negroponte. Sir, I just think that that's really 
taking us very far afield from our responsibilities.
    First of all, it's a hypothetical, I mean it's a very 
hypothetical question, I believe, in terms of the policy 
framework in which we're operating right now. I'd be most 
reluctant to attempt an answer to that question at this time.
    Senator Feingold. Well, I understand your feeling of 
constraint, but I think it's the reality that may well be faced 
sooner rather than later. And I would suggest that since we did 
not have a plan, in my view, when we went into Iraq, we better 
darn well have a plan for how to disengage from Iraq that looks 
like it looked ahead to some of these questions, because the 
American people have had it with this. We are going to have to 
re-deploy these troops, I think sooner rather than later. And I 
think it's incumbent on all of us to actually think about this 
as something other than a hypothetical. I think it's a reality 
that's coming.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman and the panelists, first of 
all, I know as we've listened to your testimony and interacted 
with most of you at the table, I think we have to say that 
something really has been working, and something has been 
really working right over the fact that since 9/11 there has 
been no attack on the American homeland. So I think you should 
be thanked for that, and I think you should be congratulated 
for that.
    I visited the agencies--like NSA and NGA and Office of 
Naval Intelligence.
    Ambassador Negroponte, I know you helped set up the 
National Counterterrorism Center. And I'd note that Admiral 
Redd is there. We were there; saw the brilliant and wonderful 
way it's working.
    So we do believe that many things are working well. And of 
course, as the appropriator for the FBI, I have the honor of 
interacting with Director Mueller many times. So we believe 
that there are many things working.
    But I think where we find ourselves today at this hearing, 
rather than going through some of the other threats that you 
raised or how we can discuss the need for resources, how to 
sharpen what the reforms were, et cetera, I think we are 
focused on the issue of Iraq. And there is indeed a credibility 
problem.
    We're very far from the ``slam dunk'' that your 
predecessor's--predecessor, General Hayden, promised the 
President. We're very far from the ``mission accomplished'' 
that the President promised us. And now we wonder where are we 
going, and what is the best way to go? Essentially, what are 
the plans? What are the intentions? And what are the 
capabilities?
    So that's where I'd like to focus my questions, and then in 
the second round come back to the FBI.
    I'd like my first question to go to General Maples. I'm so 
sorry I missed your testimony, General. But perhaps either you 
or someone else at the table could talk to me about the 
military plans that the President outlined yesterday in terms 
of going into the neighborhoods of Baghdad.
    Could you tell me, number one, in terms of achievability 
and sustainability, what would those troops do? Who is the 
enemy? In other words, who is the enemy our great military's 
going after?
    And if we're talking about disarming, who's going to disarm 
the militias or the insurgents, and how are we going to keep 
them disarmed? And who is going to keep them disarmed? Is it 
going to be the U.S. military? Is it going to be this Iraqi 
force that's been in training for now almost 4 years? We've 
been training for 4 years, longer than we were in World War II.
    Can you answer that? And I don't mean it in a pugnacious 
way. If these guys are going to be in neighborhoods going door 
to door, who's the enemy? And how are we going to deal with 
that?
    General Maples. Ma'am, I can't answer your question as it 
has been expressed, because those are operational decisions 
that will be made by the commanders on the ground and the chain 
of command.
    Senator Mikulski. So you mean when they go into Baghdad, 
and we say, ``Guys, you're into these nine neighborhoods'' that 
we heard about; you're going door to door. They won't know who 
the enemy is?
    General Maples. I think that our intelligence assessments 
and what we have provided and what we continue to work with, 
the forces in Iraq will provide them the intelligence to 
conduct the operations.
    Senator Mikulski. But what is the intelligence? In other 
words, what is it that you're going to say to the commanders? 
This is what you're going to be facing. This is who we think 
the enemy's going to be. This is what your job is. We're not 
talking about the day-to-day tactical. What is it?
    General Maples. I believe what has been expressed is that 
the primary focus of the forces, both the Iraqi and the U.S. 
forces there, will be to provide security to the population.
    Senator Mikulski. But provide security means that there's 
going to be somebody there facing you with a gun or a bomb. And 
what are we going to do? Are we going to say well, no, we only 
do Shi'ites? Or no, we only do Sunnis? What are we going to do?
    Director Negroponte. I think, Senator, one of the 
thoughts--and it certainly came up, as the General mentioned, 
that we had a number of discussions in the run-up to all of 
this interagency discussion under the leadership of the NSC--is 
that presence matters, effective security presence. And I think 
there was a feeling that it was not sufficient in Baghdad and 
it was going to have to be increased.
    And I think another point I'd make here is that I would 
emphasize the idea is for the Iraqis to take the lead as much 
as possible and for us to be in a supporting role. And the plan 
is for----
    Senator Mikulski. What does that mean? What is the 
supporting role?
    Director Negroponte. What it does mean is that in each of 
the nine districts of Baghdad there are going to be two Iraqi 
brigades; that's the plan--a total, I think, of 18 brigades, 
mixed police and army.
    Senator Mikulski. But what are we going to do, stand behind 
and say, ``This is a gun; shoot it?''
    Director Negroponte. We are going embed forces within those 
Iraqi units that will play a support and training and advisory 
role. That is going to be one of the main things we do.
    Senator Mikulski. I'm not going to--Mr. Ambassador, I so 
respect you. I'm not going to keep on this line of questions. 
But try to envision this.
    So what does ``embed'' mean? OK, here goes the Iraqi 
military; then what we going to do, have like three Iraqis, one 
Marine, three Iraqis, one Marine, three Iraqis, one Marine? 
We're going to knock on doors? We're going to look for people 
with guns?
    But even if you disarm them, who's going to keep them 
disarmed, this Iraqi force? Is that what we're looking for? 
Who's going to be the sustainable factor in this?
    Director Negroponte. The sustainable factors must be the 
Iraqis, and I think that's the idea, is to try to beef up their 
presence so that they can really have a more decisive and a 
greater impact on the kind of disorderly situation that they've 
been confronting up until now by expanding and increasing their 
presence.
    Senator Mikulski. Well, let's go then to your conditions, 
because I just can't envision this. And I make no bones about 
the fact I've never faced warfare the way the men and women in 
the military have, but I really don't get this. I don't get the 
feasibility; I don't get the achievability, and I don't get the 
sustainability.
    Well, let's then go to the so-called benchmarks. Now, what 
have you been able to advise the President about the 
capabilities of the Maliki government to be able to achieve any 
of the items that you talk about on page four?
    Let's go to something simple like oil--not even power-
sharing with sectarian violence.
    What's your view on the corruption in Iraq? Do you feel 
that they're ready to deal with the corruption in Iraq and then 
really get the oil flowing? And why hasn't the oil flowed so 
far? Four years, no oil, and they don't seem to have the will. 
Am I wrong or harsh in this? What about the corruption?
    Director Negroponte. I'll let the General follow up.
    Corruption is a problem. I cite it right in my remarks. But 
I would point out that they are producing a certain amount of 
oil, 1\1/2\, there are a couple million barrels a day; they're 
exporting 1.5 million, and they've actually got some fairly 
respectable reserves developed as a result.
    But these are the kinds of issues that we are encouraging 
them to make progress on, and we think that the fact that this 
kind of package approach is what's going to encourage them to 
move their performance in the right direction.
    But maybe I'll defer to the General here. You wanted to add 
something?
    General Hayden. Yes, ma'am. In both questions you raise--
let me start with the hydrocarbon law. As the Ambassador points 
out, they are producing oil. It's somewhat below prewar 
numbers. But they are producing; they are selling. In fact, 
they have a budget surplus in terms of monies available because 
of the export----
    Senator Mikulski. Then why are we giving them a billion 
bucks?
    General Hayden. Well, one of the reasons, ma'am, is that we 
want to use it in a targeted way with our forces so that when 
we're operating at the local level, we can have an impact. But 
the President talked about the Iraqi----
    Senator Mikulski. Talk to me about corruption. Talk to me 
about corruption, and talk to me about a government that will 
have to establish security services and be something that the 
Iraqi people can have confidence in.
    Chairman Rockefeller. Senator Mikulski, I regret to say, 
you're at 9 minutes. And we have four Senators waiting to ask 
their first round of questions. I'll obviously come back to 
you.
    Senator Mikulski. Could we finish the corruption point?
    Chairman Rockefeller. You could do it in----
    Senator Mikulski. I'm not the one answering it.
    General Hayden. All I was going to say, Senator, is that in 
the President's remarks last night he pointed out the 
condition, the requirement for the Iraqis to spend $10 billion 
in the reconstruction effort.
    And just to quickly revisit the question with regard to the 
forces, you're going to have nine sectors, nine army brigades 
and then, added on that, national police brigades, an American 
battalion embedded in each.
    It has been our experience that when there are embedded 
American units with Iraqi units, the even-handed behavior of 
that unit increases and the professional performance of that 
unit increases. So the presence of the American battalion 
there--we have a clear track record--should improve the 
performance of the Iraqi brigade.
    In addition, the Iraqi army is largely a strictly infantry 
force now. With the American battalion there, all the 
supporting elements--logistics, indirect fires, air support, 
communication--are more readily available to the Iraqi brigade.
    You asked about the commitment of the Iraqi government, and 
that, ma'am, is quite clearly the critical point and why I 
think the President spent so much time on it yesterday.
    Senator Mikulski. Well, I'm going to ask you this in the 
classified hearing.
    Chairman Rockefeller. Senator, thank you.
    I'm going to call now in order on Senator Warner, Senator 
Burr, then Senator Whitehouse and Senator Chambliss.
    Senator Warner, we welcome you, sir.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Chairman, I wish to comment on my colleague from 
Maryland's inquiry, because I share concerns--and I've 
expressed this in our meetings with the President and others--
about the American GI facing the conflict between the Sunni and 
the Shi'a--conflicts and antagonisms and killing that goes back 
over a thousand years. And I somehow feel that that's not the 
job of the U.S. GI or the coalition GI to solve. That must be 
borne by the Iraqis.
    I just had the privilege of spending about 20 minutes with 
General Petraeus--that's why I was absent for a few moments 
here--and I pressed that question on him, as I did on the 
Chairman of the Joint Chiefs the other night, or the other 
afternoon when we were together.
    We've got to make it clear that the primary responsibility 
of that sectarian violence and the resolving of it, has got to 
fall upon the Iraqi component of this jointness that we have 
and to take the point and to take the responsibility. They are 
far better qualified by virtue of language and culture and 
everything else to understand what drives two people, the Sunni 
and Shi'a, to the point of trying to take one another's life 
over, you know, a religious dispute that originated, I think, 
in 650 A.D. as to who was going to succeed Muhammad.
    I respect their religion and respect the divisions, but 
when it comes to warfare and the security of our people, that's 
very important, that we call upon the Iraqis to take the point.
    First, I'd like to say, Ambassador Negroponte, again, 
you've fulfilled another distinguished chapter in your career. 
You've laid a wonderful foundation for your successor. And I 
happen to have been privileged to know your successor . We 
worked together some 30-plus years ago in the Pentagon--a very 
able individual.
    But my first question to you is, in the course of the 
deliberations in the Armed Services Committee, working up to 
the bill that was passed this year for the annual 
authorization, we put in a request to the Administration to 
perform a National Intelligence Estimate on Iraq, an NIE. And 
that is now under way.
    First, Mr. Ambassador, could you give us an estimate of 
when that might be released?
    Director Negroponte. Yes, Senator. Probably by the end of 
this month, which has been pretty much the target that we had 
all along. As you know, these estimates take several months to 
prepare.
    Senator Warner. Oh, yes.
    Director Negroponte. And it's just been circulated now for 
sort of final coordination between the intel agencies and then 
we will have several meetings on them, and so I expect by the 
end of the month.
    But in the meanwhile, I would like to point out that this 
hasn't impeded us from contributing to all the deliberations 
within the Administration about this new policy initiative that 
was announced by the President yesterday. So that proposal has 
had the benefit of the latest intelligence from Iraq, just as 
we have been periodically briefing the Congress on what's going 
on in Iraq.
    So the fact that the NIE has not yet been produced does not 
mean that we have been holding back useful information for 
policymakers with respect to that country.
    Senator Warner. Well, early on in October when I came back 
from Iraq, I expressed my grave concern that the situation was 
drifting sideways, and the rest is history. And some others 
joined in my concern at that time. And I commend the 
Administration for the manner in which they really have come 
together, worked very conscientiously, listened to a lot of 
different perspectives, and that has culminated in what the 
President presented to the Nation and the Congress last night. 
And I think it was a credible job and it's worthy of the most 
intense study by the Congress.
    And that's the process this Senator is in now, is not only 
a study of the President's release last night, but the manner 
in which it was put together. And that's why I asked the NIE 
question because, I say to my colleagues most respectfully, 
that NIE will, I think, bring into sharp focus some issues 
which bear upon some of the conclusions and the objectives that 
the President stated in his document last night.
    And I for one, am going to withhold final judgment on 
exactly where and how I'm going to hopefully join in a 
bipartisan way to come up with some revised strategy that we 
can all agree on. But I think it's important that Members 
examine that.
    And Mr. Chairman, my understanding, when I was Vice 
Chairman of this Committee many years ago, is that the 
Committee makes that NIE available to all U.S. Senators in our 
spaces for examination. Would that be correct? And therefore, 
once released, I urge my colleagues to look at that all-
important document.
    I also commend you, Ambassador Negroponte, on the very 
forthright presentation in your statement today. And I urge 
that colleagues have the opportunity--all Senators--to read 
that, because it brings into a clarity of focus the very key 
issues that are before us now, as we try and work with our 
President on the new strategy.
    And I want to once again return to your phrases, which were 
quite clear. Iraq is in a precarious juncture. And you recite 
the problems. You have prospects for increasing stability over 
the next year will depend on a number of issues, and you very 
clearly set forth; there are seven of these issues in here. 
Indeed the friends in our region are concerned about the 
consequence of the growing instability in Iraq.
    Now, given that, I think, clear and factual and accurate 
portrayal of the situation, we've got to get a better 
understanding of what it is that the President feels we can 
accomplish in this mission. And so much of it is dependent upon 
Prime Minister Maliki and his government in delivering.
    The President mentioned benchmarks.
    Now, but my specific question to you, can you give us any 
further definition here in open session--we'll continue to 
pursue it in closed--of your estimate as to how solid the 
Maliki administration is in place, how likely that it will 
continue? It's got to continue, it seems to me, for at least--
Maliki in that office--for another year. And we have these 
somewhat disturbing statements about how he didn't really want 
the job and one thing and another.
    But I put that aside and I want to rest on your evaluation 
of Maliki as an individual, his strength of will, his strength 
of purpose to live up to the commitments that apparently he has 
made to the President of the United States, who in turn, as 
President, has now formulated a plan which presumably tracks 
some of Maliki's requests to our President to go forward and 
really put in harm's way another 10,000, 15,000, 20,000, 25,000 
of our forces.
    Director Negroponte. Well, he certainly made a strong 
speech the other day, Saturday night, on the occasion of the 
anniversary of the Iraqi armed forces about his willingness and 
the government's readiness to go after unlawful elements of any 
type and extremists on both sides.
    I think it's important that they're prepared to commit 
resources, their own resources, these $10 billion that the 
General was referring to, as a way of following up these clear-
and-hold operations.
    I think he's got a tough row to hoe, Senator, in the sense 
that his government was put together--it was sort of a 
negotiated proposition with the elements from across the 
political spectrum.
    Senator Warner. I'm fully aware of that, but I'm just 
talking about the man himself; the gravitas that he has or 
doesn't have.
    Director Negroponte. I think he's been making a very noble 
effort under very, very challenging circumstances.
    But are these conditions going to be met? Are the 
benchmarks going to be met? I think we've got to wait and see. 
But I certainly feel that he ought to be encouraged by this 
affirmation of American commitment and desire to work with him 
to reach a satisfactory outcome. And I would have thought that 
that would give impetus to his efforts and be helpful.
    Senator Warner. All right. Now, I don't want to get into 
detail on the exact military----
    Chairman Rockefeller. Senator Warner, could you make this 
the last part, sir?
    Senator Warner. I will, Mr. Chairman; I'd be glad to do 
that.
    Chairman Rockefeller. You're approaching 10 minutes.
    Senator Warner. I will not get into the military planning, 
which I have some knowledge about it, but basically, it's going 
to take time to marshal the additional forces of the United 
States and sequence them into that area of operation--namely 
Iraq--to stage and then move into place in the nine different 
parts of Baghdad.
    Just my judgment: It's probably going to be the March-April 
timeframe before the real center of gravity of this movement 
will begin to move forward.
    So my last question to you: What are some of the benchmarks 
that he can achieve, Maliki as Prime Minister, between now and 
when the full momentum of this buildup; should it go forward, 
take place to show to the American people it is truly a 
partnership and that this time the Iraqis are going to perform, 
unlike they did in a previous iteration of last summer when we 
staged that operation in Baghdad to try and straighten it out? 
And they failed to show up, the Iraqi troops.
    Director Negroponte. Well, for example, naming this 
commander for the entire jurisdiction of Baghdad, I think is an 
important step; starting to mobilize and get these forces ready 
for their move into Baghdad; and of course, starting to 
identify those funds, out of those $10 billion and start 
getting ready to deploy them to affect the situation. Those, 
for example would be some of the things.
    In the parliament, I think it would be trying to move some 
of the legislation that has been pending for a long time, such 
as the oil- distribution legislation which hasn't yet been 
passed.
    Senator Warner. Thank you.
    Could the other two witnesses, General Hayden and General 
Maples, add to that question, if they so desire?
    General Hayden. Sure, Senator. I think an early indicator 
will be the degree of independence of the Iraqi commander for 
Baghdad--that he's free of political considerations and has the 
ability, the freedom, to restore order in the capital. That 
means going after everyone who is outside the law, regardless 
of religious affiliation, and going into whatever neighborhoods 
he needs to go into operationally to effect that result. I 
think that would be an early and a very good indicator.
    Senator Warner. General Maples.
    General Maples. Sir, the only other thing I would add is 
the Prime Minister's ability to influence Sadr at this point, 
which I think will be very significant also.
    Senator Warner. All right. I thank the Chair.
    Chairman Rockefeller. Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Gentlemen, welcome. Thank you for your commitment. Thank 
you for your patience. Thank you for your knowledge you bring 
to this hearing.
    Ambassador, have the objectives of al-Qa'ida 2001--and when 
I say objectives, economic impact--changed? And that goes to 
the heart of a comment you had in your testimony about mass 
casualty. My curiosity--I remember the talk of the attack, 
post-9/11 and the economic impact of the significance of the 
twin towers.
    Are we now at a point--Director Mueller talked about 
aircraft, and I was trying to separate in my mind, is this a 
delivery system or are we now--destruction of one aircraft 
which is mass casualty. Have we seen that transition?
    Director Negroponte. I personally believe, but I'd be 
interested in what the others feel, that they pretty much have 
the same kinds of objectives as they did then--i.e., both mass 
casualties and harming economic infrastructure and symbols of 
capitalist society.
    To give an example, last August, the plot against the 
airliners that were going to go from the United Kingdom to the 
United States; it wasn't just one airliner; it was nine 
airliners that they wanted to see simultaneously blown up. So 
that would have caused thousands of casualties. So it would 
have been on a par, or something similar to 9/11.
    Senator Burr. And one would believe that that was to 
achieve maximum loss of life versus economic disruption and the 
impact that it caused in airline travel?
    Director Negroponte. Well, probably both. But I'd be 
interested in what----
    Senator Burr. Director Mueller.
    Director Mueller. I think, clearly, there are a number of 
objectives. One, mass casualties; just the killing of Americans 
is number one. Second would be the adverse impact on the 
economy of the Unites States by taking down an aircraft. Third, 
the publicity. All of those are objectives that I think al-
Qa'ida tries to attain as it develops these continuing plots.
    Senator Burr. Ambassador, you also said in your testimony, 
and I quote, ``We must understand the enemy, his intentions and 
his capabilities.'' Now, I'm going to ask you a very simple 
question: How much have we learned?
    Director Negroponte. Well, I think certainly, as in any 
kind of war, as time goes on you learn more about your 
adversary, your enemy. And I think that's been true in this 
situation vis-a-vis al-Qa'ida, and I think it's demonstrated by 
some of the successes we've had in putting some of their 
operatives out of commission, like Mr. Zarqawi or some of the 
people who are close to bin Laden in the third tier of their 
leadership. We've pretty much eliminated, as you know, almost 
everybody who was in the third tier of the original team, if 
you will, of Usama bin Ladin. I'm sure there is more to be 
learned, but we're in a much better position than we were 
before.
    And the other point I would make in that regard is, we are 
devoting an enormously greater amount of both collection and 
analytic effort to this challenge than we were 6 years ago.
    Senator Burr. General Hayden, would you like to comment at 
all about this, how much we've learned?
    General Hayden. Sure, Senator.
    First of all, stating very clearly, you're never good 
enough and you always have to get better. I think it would be a 
very instructive pair of case studies to look at what happened 
and didn't happen in July and August of 2001 and what did and 
didn't happen in July and August of 2006 with the two plots, 
the 9/11 plot and the airline plot. There is a remarkable 
difference in the performance of our community between those 
two events.
    Senator Burr. Several of you, I think, alluded to energy in 
your statement. I think in the United States domestically we 
control about 6 percent of the reserves in the world. That's 
either here or through U.S. companies. The majority of the 
reserves in the world are held by Iran, Iraq, Saudi Arabia, and 
Russia.
    My question is, how concerned are we about energy security? 
Are we doing enough? And Ambassador, for you, who is the lead 
agency for our national security as it relates to energy?
    Director Negroponte. Well, from the point of view of 
analysis, I mean, the intelligence community pays a great deal 
of attention to the energy situation, energy politics, energy 
reserves. General Hayden's agency does an awful lot of work on 
that subject, has some very fine capabilities.
    As far as the policy work is concerned, I would say that is 
really something that comes under the National Security 
Council, with inputs from the Department of State and the 
Energy Department, would be the two that I would mention.
    Senator Burr. Well, my time is up, Mr. Chairman. I would 
like to make the point that I'm sure I don't need to make, that 
if our eye is not closely on this one, just with the players 
that control the lion's share, we could find ourselves in a 
mess in a very short order. And I know this is something that 
DOD is greatly concerned about and tremendous effort is being 
put on.
    My hope is that we can make an even stronger effort to 
understand where it is we need to position in the future and 
what we need to do here to position differently than we are 
today.
    Again, I thank each one of you.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Burr.
    Our order now is Senator Whitehouse, Senator Chambliss, and 
then Senator Nelson.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Good afternoon, Ambassador, nice to see you.
    The President indicated last night an intention to disrupt 
networks in Iran and Syria that were delivering arms into Iraq 
and fueling the conflict. I presume that he did not intend that 
statement to express any intention to engage militarily on 
Iranian or Syrian soil in pursuit of that objective. But if 
that were the case, and if we were found to have engaged 
militarily on Iranian or Syrian soil in pursuit of that or 
other objectives, what would you estimate the political, 
diplomatic and other consequences would be of that on our 
efforts to bring peace, tranquility and security to Iraq?
    Director Negroponte. Senator, let me say this, first of 
all. From an analytic point of view, the behavior, as I said in 
my statement--my prepared statement--both the behavior of Syria 
and Iran with respect to Iraq is of great concern. We estimate 
that something on the order of 40 to 70, maybe even more, 
foreign fighters come in across the Syrian border into Iraq 
every month and many, if not most, of those are suicide 
bombers.
    And then earlier in our session here we had a discussion 
about what the Iranians are doing in terms of supporting Shi'a 
extremist elements with explosively formed devices and other 
types of lethal assistance. So I think those kinds of behaviors 
are very troublesome.
    In terms of disruption and interdiction, I really do think 
it would be better to discuss that in closed rather than in 
open session.
    Senator Whitehouse. Including the hypothetical question, if 
that were to happen and if we were to be found to have done an 
incursion into Syrian or Iranian sovereign territory, what 
would be the political and diplomatic consequences vis-a-vis 
our efforts to bring peace to the region?
    Director Negroponte. I just think the question of how to go 
about disrupting these activities is just generally something 
that might be better discussed in closed session.
    Senator Whitehouse. You are responsible for the execution 
of these things, and I will defer to your judgment on that.
    Let me ask a slightly more complex question, and it's one 
that I think, at least from my point of view, is the beginning 
of a discussion. I'm new here, as you know. But clearly, I 
think we all understand that the success of the President's new 
strategy to escalate the conflict with additional troops is not 
at this point guaranteed. This leaves open the prospect that it 
is not successful, which raises the question, then what?
    And particularly if the commitment, as the President said 
last night, is not open ended, then obviously at some point it 
will end.
    My question is whether it is not in our national interest, 
in terms of the reactions of the multiple players engaged in 
this conflict and surrounding this conflict, but at the point 
when we decide when it's not in our national interest to pursue 
the present strategy, does it not make sense to make a clear 
statement of our intention to deploy our troops elsewhere and 
take advantage aggressively and diplomatically of the window I 
would suggest that that might create to engage more 
aggressively with the Iraqi government factions, with the 
neighboring Arab countries and with the larger world community, 
all of whom, to one degree or another, have a disincentive from 
engaging helpfully in this conflict as a result of our 
presence?
    Director Negroponte. I just don't know whether, at this 
point, when we're talking about plan A, whether it's the time 
to be talking about plan B.
    Senator Whitehouse. It is the intelligence function, is it 
not, to prepare for plan B?
    Director Negroponte. It's a policy function. I think our 
function in this particular exercise has been, first of all, to 
lay out for the policy community the situation in Iraq as we 
see it, and then we participated also in the dialog that took 
place as they developed the specific steps that have been put 
forth.
    And as the General said earlier, and I agree with him, I 
think that if the different elements that I had mentioned 
earlier are carried out and come to pass--the question of the 
Iraqi government and political leaders establishing effective 
national institutions, the extremists being defeated, and so 
forth--we think this initiative has a chance to succeed. I 
think I'd be reluctant to go into the what-if's.
    Senator Whitehouse. Yes. Well, it's clearly a very broad 
question, and as I said, it's sort of introductory; I'll 
continue to pursue it with you.
    Director Negroponte. I think the other point, too, that one 
has to think about is the impact on the neighboring countries. 
I think there's a lot of concern in the region about what is 
happening in Iraq and a lot of concern that the situation be 
stabilized.
    Senator Whitehouse. Concern can be motivating.
    A specific example of the point might be the reaction that 
press reports have indicated the Iraqi population has to our 
presence, in which polls have apparently said that a majority 
of Iraqis not only don't want us there but believe that it's OK 
to kill coalition forces, presumably because we're viewed as an 
army of occupation. Would a stronger indication that our 
position there is not open-ended, and indeed that redeployment 
is in the future, would that not quell some of that sentiment? 
First of all, do you think that information is accurate, and 
would that not quell some of that sentiment?
    Director Negroponte. I think there is some truth to it, and 
I also think that the fact that, for example, as the President 
announced yesterday, the Iraqis will be assuming the lead for 
security throughout the country by the end of the year I think 
is a nod toward that concern.
    The point is, how do we get from here to there in such a 
way that the Iraqis will have adequate capabilities, capacity 
to acquit their responsibilities? And the way forward that 
we've described is the way, the best way we can think of to 
getting there.
    Senator Whitehouse. I'll follow up further in the 
classified session. I appreciate your testimony, and it's good 
to see you again.
    Director Negroponte. Thank you.
    Chairman Rockefeller. Thank you, Senator.
    Our order now is Senator Chambliss and then Senator Nelson, 
then Senator Snowe.
    Senator Chambliss you go ahead.
    Senator Chambliss. Mr. Chairman, what is the Chair's 
intention relative to a closed session?
    Chairman Rockefeller. I'm sorry?
    Senator Chambliss. What is the Chair's intention relative 
to a closed session with these gentlemen?
    Chairman Rockefeller. The Chair's intention is to be 
responsive to the membership of the Committee, and the Vice 
Chairman's view is that. We discussed that. And it is late; 
there are questions that still have to be answered, but this 
was laid out as both an open and then a closed session.
    If the Senator has a question which he only feels he wants 
to ask in closed session, then there will be a closed session. 
Senator Wyden, I think shares that view somewhat and others 
may. So be assured that that will be available to you if you 
wish it to be.
    Senator Chambliss. I just have one question.
    General Maples, there are fresh reports today relative to 
the military entering an Iranian facility in Irbil. And it 
looks like we detained six individuals who are believed to be 
IRGC associates. What can you tell us about that situation, 
both relative to the individuals detained and what type of 
individuals they may be? And what about other assets that might 
have been picked up or information picked up?
    General Maples. Sir, the information we have about that 
operation is very limited, and you have the basics of that, 
although there was material that was taken as a part of the 
operation that can be exploited.
    Senator Chambliss. OK.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Fort, let me ask you. Here is a track of all of the 
suspect tracks of narcotics from Central America and South 
America in the year 2003. This is what it is in 2006. And as 
you can see, just simply by the amount of red lines, a lot of 
it is originating in Venezuela and it's going to Haiti or the 
Dominican Republic, and then of course, it's coming on up 
through the Caribbean.
    I'm going to Haiti tomorrow, and I'd like to know what, in 
your opinion, does this increase of traffic mean for stability 
in the region?
    Mr. Fort. Well, Senator, I must confess, I've not seen 
those charts, and my own expertise in terms of flows of 
narcotics coming up from Latin America is very limited. And if 
we wanted to have an in-depth conversation, I'd need a little 
bit more preparation.
    In a general response to your question, though, the 
implications are simply not very good. I mean, as we know from 
many years--from decades actually--of narcotics trafficking 
flows from Latin America and elsewhere, there are a variety of 
impacts on the local economies of the countries of production, 
on the law enforcement, on the social fabric, and so on and so 
forth.
    Senator Nelson. Let's visit privately about it so we can 
get into specifics.
    Mr. Fort. Certainly.
    Senator Nelson. And this is under the umbrella that DOD was 
trying to take away helicopters from the region, specifically 
in the Bahamas, that were trying to interdict some of this 
traffic. And I think we've got that turned around now. But I 
will look forward to visiting with you on that.
    Mr. Fort. Certainly, Senator. Thank you.
    Senator Nelson. Let me ask General Hayden--and thank you 
all for your public service--there's a widely circulating 
opinion poll that indicates that 61 percent of Iraqis believe 
attacks against American forces are justified. Do you think 
that's accurate, and how would you characterize the Iraqi views 
toward U.S. forces in Iraq?
    General Hayden. Senator, I don't know the details of the 
poll that you're quoting, but I think, as the Ambassador said a 
few minutes ago, there is probably some element of truth in 
there in terms of betraying kind of intuitive Iraqi reactions 
to foreign occupation. I think that's understandable, 
particularly since this has been some period since the 
beginning of our move into Iraq 3 years ago, and, I'd also 
suggest, the failure of ourselves and our coalition allies and 
the Iraqi government to provide security. I think those are two 
important factors in the results of the poll. Again, I don't 
know how scientific it is, but there are elements of truth to 
that. That, I think, we're confident about.
    Again, as the Ambassador suggested a bit earlier, that's 
why success in Iraq will--must--have an Iraqi face on it. And 
that's why in terms of what the President announced last night, 
the fact that we're using Iraqi brigades on point in Baghdad is 
very important.
    Senator Nelson. I have, as you know, talked to your 
officers in almost all of those countries. And I'd like your 
opinion on--do you think that the Sunnis and the Shi'ites can 
come together on a compromise government?
    General Hayden. Senator, that's obviously the $64 question 
and will largely determine how successful we can be in creating 
a pluralistic, even democratic government in Iraq. This is a 
very complex question. I don't mean to dodge it, but if you 
could just give me maybe \1/2\ minute or 45 seconds.
    Because of the events, most of them generated by merciless, 
almost satanic al-Qa'ida attacks on the Shi'a population, which 
remained very quiet for about 2 years until about the Samarra 
mosque bombing, the dividing lines in Iraq right now are 
between Sunni and Shi'a. The objective of our strategy is to 
make the dividing lines in Iraq between radicals and moderates. 
The definition there are those who are or are not willing to 
kill their neighbors. That's the objective we have laid out for 
ourselves.
    I think we can only get to that kind of dialog by providing 
some minimal level of security for the population that doesn't 
exist right now. Without that minimal level of security, I'd 
offer the view, Senator, that even good people will be doing 
bad things, just simply out of raw fear.
    Senator Nelson. Ambassador Negroponte, there are a lot of 
people that are quite expectant what might happen in Havana. 
What do you expect to happen on the island after Castro's 
death?
    Director Negroponte. Senator, obviously we don't know for 
sure. I think clearly the transition has already begun. Fidel 
Castro's days seem to be--or months--seem to be numbered. But 
what is not known is whether people are holding back and maybe 
we're not seeing the kind of the ferment yet that one might 
expect to see once Mr. Castro has definitively departed the 
scene. So there is that question of whether his actual passing 
might trigger some kind of a new political situation.
    Clearly, what Castro and his brother have in mind is to try 
to create some kind of a soft landing for the regime, whereby 
they transition from Castro to his brother in some kind of very 
smooth way. That is clearly their plan, but I think from the 
point of the U.S. policy, we don't want to see that happen. We 
want to see the prospects for freedom in that country enhanced 
as a result of the transition post-Fidel Castro.
    Senator Nelson. So we really don't know at this point what 
to expect.
    Director Negroponte. We don't know in large measure because 
it is a repressive society. They've repressed their opposition 
so severely over all these years, so people aren't exactly 
speaking up yet.
    Chairman Rockefeller. Senator Nelson, I'm going to have to 
intervene here. We're at 7\1/2\ minutes with you. Everybody's 
meant to be at five. That's primarily my fault. But Senator 
Snowe has a question that she wants to ask.
    Senator Nelson. All right. I have just one further question 
at your pleasure.
    Chairman Rockefeller. All right. And then Senator Wyden, 
and then Senator Rockefeller actually has a question.
    Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman.
    I wanted to follow up on the question of national 
reconciliation because obviously this is the essence of the 
President's proposal in terms of buttressing his proposal to 
provide for a surge in troops in Iraq.
    General Hayden, you mentioned the bombing of the golden 
mosque in Samarra, and Senator Wyden and I were in Iraq, you 
know, days after that occurred, and that was obviously the 
event that unleashed the sectarian violence.
    It seems to me in your descriptions before the Senate Armed 
Services Committee last December--November--and General Maples, 
and now Director Negroponte with respect to the ability or the 
capacity of the Iraqi government to reconcile these differences 
and to bridge this political divide.
    And it seems to me--and in reading this description, 
Director Negroponte, when you're saying that Prime Minister 
Maliki's national reconciliation agenda is still at its initial 
stages, the various parties have not yet shown the ability to 
compromise effectively on the thorny issues of de-
Ba'athification, the oil revenue, provincial elections, and so 
on, you're describing something that very much was present when 
we were there back in early March. The Maliki government was 
assembled in May. It is now January.
    And General Hayden, back in November, you described the 
situation that the Shi'a now focus on assuring that Iraq's new 
government reflects the will of the majority, that the Sunnis 
view the Shi'a as Iranian-controlled and the current government 
as predatory, and that the Kurds, for their part, want to keep 
and strengthen their substantial autonomy they've exercised 
since 1991, and that all reject the coalition presence and the 
constitutional regime.
    General Maples, you said last November in your testimony 
before the Senate Armed Services Committee, that although a 
significant breakdown of central authority has not occurred, 
Iraq's moved closer to this possibility primarily because of 
weak governance, increasing security challenges, and no 
agreement on a national compact.
    I mean, if you talk about this whole description in terms 
of the political will that obviously doesn't exist within the 
government to take the risk for national reconciliation, I 
mean, is national reconciliation even possible?
    And how is that 20,000 troops going make a difference if 
the Iraqi government isn't willing to take the risk for those 
political concessions and compromises, doing what they should 
be doing for themselves and what we would expect them to be 
doing?
    So Director Negroponte, I'd like to have you respond, as 
well as General Hayden and General Maples.
    Director Negroponte. First of all, I agree with the thrust 
of your question in the sense that it's a very difficult and 
grave situation.
    But I think, to your question of what difference would an 
increase in our troop presence and involvement make, I think it 
can only be viewed as a package in conjunction with additional 
effort on the part of the Iraqi government itself, both in the 
political area, the legislative area--trying to get those laws 
changed that we were talking about, the de-Ba'athification and 
the oil revenues, and the assistance effort, the question of 
getting more money into these areas that are cleared.
    The question is, the situation is difficult, but I don't 
think it's hopeless. And I think that through a combination of 
measures, it can be addressed, although time will only tell 
whether these measures are going to be successful or not.
    Senator Snowe. General Hayden.
    General Hayden. Yes, ma'am. Again, to kind of review where 
we've been, the Iraqis have had a chance to effect these grand 
compromises since about the beginning of 2006. Prior to that, I 
think through a process that was quite heroic on both our part 
and theirs, we built up step by step to get a democratically 
elected Iraqi government in place.
    That was done in the face of what I mentioned earlier, this 
tremendous effort on the part of al-Qa'ida to inflict just raw 
human suffering on the Shi'a population. With as you suggest, 
the Samarra mosque bombing, all hell breaks loose from the 
Shi'a side. And every bit of evidence we had, that's not a pre-
planned move waiting for a provocation, it is a visceral 
response--the final provocation coming from al-Qa'ida.
    There are really deep-seated historical problems to 
overcome. And as you know--you visited--if you talk to the 
Sunnis, they think the current government is Iranian, if not 
Iranian-controlled. If you talk to the Shi'a, they think if 
Saddam's not coming back still, the Ba'athists are coming back. 
So you've got these really deep-seated fears that have to be 
dealt with.
    A very important aspect of General Maples' testimony and 
mine in November is that we described the sectarian violence 
there for the first time to be self-sustaining. It no longer 
needed external stimuli to cause these two communities to go 
after each other in the way they've been going after each 
other.
    During long deliberations in November and December--the 
Ambassador referred to these small-group meetings under NSC 
auspices. The fundamental question was: Can they make these 
political compromises in the current security environment? Our 
judgment was they could not and that we had to somehow 
intervene to bring the security to a certain level that then 
allowed--and this is very important, ma'am--the possibility 
that the Iraqis would make these compromises. I agree with you, 
this is an Iraqi responsibility to make these kinds of very 
hard decisions.
    Senator Snowe. I just don't see where the security question 
is going to overcome the fundamental problem and the root 
causes in Iraq. I just don't see it because there hasn't been 
any attempt to avert the initial stages; the political 
reconciliation stalled, there's nothing to prevent them from 
doing that. There's nothing.
    If they had the political resoluteness, and I--that's my 
concern. I mean, if it's taken this long--I mean, the oil 
revenues, for example, are at pre-Saddam levels in terms of 
revenues and exports currently. That's what it was in March and 
obviously still is today. And when you talk about the 
fundamental divisions that exist within Iraq, I don't see how 
the security question is going to affect that in the final 
analysis.
    Director Negroponte. The reason we believe it should and it 
might, Senator, is that it's the insecurity that precipitated a 
lot of this negative behavior in the first place. I mean, these 
divisions and these differences might have existed previously, 
but they have been now exacerbated and aggravated first by the 
al-Qa'ida and by the reactions that the General was describing, 
so that then you get this kind of a downward spiral where, as 
the General said earlier, even good people end up doing bad 
things.
    So I think by restoring security I think you can also help 
restore some civility to the political dialog.
    Senator Snowe. I thank you.
    Thank you.
    Chairman Rockefeller. Let me just announce for all the 
following. I'm going to ask a couple questions, then Senator 
Wyden, Senator Mikulski, Senator Nelson. I know it's late, and 
I'm sorry, but that's the way this usually works. And we have 
an obligation to Senators who want to ask questions in closed 
session, and I absolutely will honor that.
    That will require a 10-minute break, which could be useful 
for other purposes, to simply rewire; that's all it takes. 
We'll do it right here. We'll go into closed session. So that's 
what we're going to do. I hope that you will all stay for that, 
regardless of the length of all of this.
    Remember, the great music--the greatest music ever written 
was the St. Matthew Passion; it took 3\1/2\ hours--by Johann 
Sebastian Bach. So we have a ways to go still.
    Vice Chairman Bond. I don't think this is going to rival 
that. [Laughter.]
    Chairman Rockefeller. You don't. OK.
    At the beginning of the war, Ambassador, I think the Shi'a 
objection to our being in Iraq in that posture was about 13 
percent. And I think it's now up to 71 percent.
    Could you just think out loud a moment for me, quickly, 
about the effect of that in relation to our ability to deal 
with the insurgency?
    Director Negroponte. I think, first of all, you've got to 
address the question or you've got to ask yourself the question 
about how reliable these polls are, because if you talk to 
the----
    Chairman Rockefeller. Let's say they're partly reliable; 
they're ballpark figures, and you understand that.
    Director Negroponte. And then you have to sort of wonder 
what they actually mean. Does it mean that simply people are 
fed up with the absence of security? I would submit to you that 
a lot of this has to do with, well, we just haven't had 
security, and well----
    Chairman Rockefeller. Ambassador, you can argue with my 
figures, but they are approximately correct and they have to do 
with the presence of American troops. So it's that that I wish 
you to deal with with respect to its effect on tamping down the 
insurgency.
    Director Negroponte. Well, I don't believe that that 
necessarily has an adverse effect on the conduct of our 
counterinsurgency efforts. But maybe you can help me by 
elaborating on your question or maybe one of my colleagues can 
help me here.
    Chairman Rockefeller. Nobody has an answer to that. All 
right.
    Director Hayden, in my opening statement I expressed my 
concern about the existence of a separate CIA detention program 
that's been publicly acknowledged by the President, as I 
indicated. To me, it's a matter of some lasting damage in our 
standing with the moderate Islam community across the rest of 
the world. And it's that which is my focus, this moderate 
population which is not yet involved in jihadism and the 
madrassa schools which don't teach that kind of thing.
    In your estimation, what are we doing with respect to the 
feelings of the moderate community as they listen on Al-Jazeera 
and others about the possibility of detention and, as might be 
interpreted, torture, and CIA? CIA is not watched as carefully 
as DOD.
    General Hayden. I'm sorry, Senator.
    Chairman Rockefeller. The CIA is not watched as carefully 
as DOD; that has to be part of the point.
    General Hayden. Actually, that's not true, but I understand 
you're not saying it's true; you're talking about the image 
that's portrayed and how people might use or misuse the fact 
that there exists a separate CIA interrogation program.
    What it is we do is lawful. It's lawful according to U.S. 
law; it's lawful according to international law. In closed 
session I'll elaborate a bit more as to why we're very 
confident about that, about those judgments and how other 
people view it.
    It has a tremendous return on investment in terms of 
intelligence value. So even accepting the premise that it has 
some negative effect with regard to a public diplomacy 
campaign, that has to be balanced against the quality and 
quantity of the intelligence that it provides to protect the 
homeland.
    I think all those are very, very important factors, 
Senator.
    Chairman Rockefeller. OK, we'll do that in the next 
session.
    A final very quick question: At our opening hearing on the 
threat 2 years ago I asked then-Director Porter Goss about 
unaccounted-for Russian fissile materials and whether he could 
assure us that the materials had not been stolen and found 
their way into the hands of terrorists. And of course, he said 
that he couldn't assure us of that. Are we any farther along a 
chain of having more of a grasp on that?
    General Hayden. Senator, two reasons I prefer closed 
session--one is for details, but two, to make sure I get all 
the facts right.
    I would agree with Director Goss's statement, though. We 
don't have a total handle on it even still. But let me go ahead 
and do some homework to give you an answer to see what, if any, 
improvements have been made.
    Chairman Rockefeller. OK.
    Senator Wyden.
    Senator Wyden. General Hayden, in Iraq, what proof is there 
that Prime Minister Maliki is prepared to confront al-Sadr and 
the Shi'a militias directly? And the reason I ask this is that 
my sense is that Prime Minister Maliki has given some speeches 
about this, has sort of paid lip service to the question of 
taking on these Shi'a militias, but is sort of hoping to suck 
us into this, which would open up a whole new front of our 
involvement.
    And what I'd like to know is what hard proof can you point 
to that would indicate that Prime Minister Maliki is prepared 
to confront al-Sadr directly?
    General Hayden. Senator, again, I can give a more elaborate 
answer in closed session. But in the current session, when we 
took both the policy the President announced last night and the 
speech he used to announce the policy to CIA analysts, and we 
sat down with a large room full of analysts on Tuesday to go 
through the speech, we have been using the analytical work of 
these people to shape our discussions, but I wanted them to see 
the speech, that was a critical concern.
    Everyone understood that the success of this plan 
fundamentally, unarguably, unavoidably depended on the 
performance of the current government.
    I need to be careful here, too. Maliki clearly is a very 
important player as the Prime Minister. But success is going to 
be created by a larger group, and we have to include others we 
would at least give the opportunity to be moderates, like 
President Talabani and Abdul Aziz al-Hakim, and Tariq al-
Hashimi, who represent various groups inside there.
    But the success or failure of the plan will depend on their 
being able to make the right decisions with regard to security. 
As I suggested earlier, that means going against anybody 
outside the law, going into any neighborhoods in Baghdad.
    Senator, I'll be very candid with you because the President 
was very candid last night. The track record of the current 
government with regard to this isn't something that would 
naturally give you great confidence. That's why there's that 
language in the President's speech that makes the success of 
this very conditional on the performance of Prime Minister 
Maliki and his government.
    Senator Wyden. I understand what the President is hoping 
for. I'm still looking for some hard proof--maybe you want to 
talk more about this in secret, in the closed session--that he 
is actually willing to do this, because that's the ballgame. If 
you don't take on the Shi'a militias directly, and somebody's 
got to do it, then I don't see how this can possibly come 
together.
    General Hayden. Absolutely correct, Senator. Taking on the 
Shi'a militia does things internally to Iraq in terms of 
creating the social contract with all parts of the population--
in this case the Sunni population. It creates powerful and 
positive effects externally that this is a government of all 
Iraqis and not a Shi'ite faction in control, and that is a very 
beneficent effect in the larger neighborhood, which is largely 
Sunni. It's very critical.
    Senator Wyden. Mr. Chairman, I think Senator Bond wants to 
get to the ``Closed Session Symphony.''
    Chairman Rockefeller. Well, we have two more people, 
Senator Mikulski and Senator Nelson.
    So Senator Mikulski.
    Senator Mikulski. Mr. Chairman, let me get right to the 
point of it.
    First, though, to Ambassador Negroponte, I meant what I 
said about things working right, and I think you are to be 
congratulated for implementing the intel reform legislation. 
You were given a very difficult job to stand up a whole new 
agency and a whole new framework, and quite frankly, many of us 
are disappointed that you are going over to State because I 
think you did not only try to follow the letter of what the law 
was on reform but the spirit of it.
    And I would say to my colleagues, a perfect example of this 
is to go visit the NCTC that Admiral Redd, who is here this 
evening, operates, because you then see that they both identify 
the dots and connect the dots, and I would really recommend 
that.
    But this past year--and this goes to a question both for 
you, Mr. Ambassador, and the Director of the FBI. It goes to 
FISA. And my question very simply is this. Should FISA be 
reformed, based now on your whole experience standing up this?
    And Director Mueller, you know you're the domestic person 
here that gets all the gathering around the world and have to 
deal with it in the United States. Do you think that FISA needs 
to be reformed? And No. 2, if so, does the Administration have 
a plan to submit a FISA reform package to the Congress?
    Director Negroponte. Senator, I think the answer is in two 
parts. First of all, there are things about FISA that could be 
modernized that take into account changes in technology and 
communication and so forth. But whatever changes take place, if 
they do take place, we think as far as the terrorist 
surveillance program is concerned, have got to preserve the 
intelligence utility of that program--that is to say the 
agility of the program, the speed with which it can operate, 
and the protection of sources and methods.
    Director Mueller. As to the second part of the question, 
Senator, on legislation, I know there are periodic discussions 
about changes to FISA, but I do not believe there is a 
particular package waiting to be presented to Congress.
    As to the first part--should it be reformed, given the 
advances of technology and the speed of the technology and the 
evolution of technology advancements--yes, I do think we ought 
to continuously look at ways that we can update FISA to take 
into account the new technologies that come on monthly, if not 
weekly, now.
    Senator Mikulski. Mr. Chairman, in the interest of time, 
I'm not going to go on with other questions. I'll be talking to 
the Director of the FBI.
    But the other thing is, remember, after 9/11, we decided 
not to create our own domestic surveillance agency, and they've 
been doing two jobs--fighting crime as well as fighting the 
global war against terrorism, and maintaining a pretty 
significant ops tempo. And I think at another time, I'd like 
the Committee really to focus on the FBI. And also, I think we 
need to pick up on FISA.
    But I think enough said for tonight.
    Chairman Rockefeller. Senator Mikulski, we're going to have 
a hearing precisely on that.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, I'll be very brief. I just 
want to pick up where Senator Mikulski left off, Mr. 
Ambassador, and say that I too am disappointed that you're 
going to State. You've had a long and distinguished career, and 
obviously there's the tie-in with Iraq, you having been the 
Ambassador there. But there's nothing more important than 
intelligence. And you stood up this organization and I would 
have expected at least another 2 years in your term, and I hate 
to see the disruption from the head leaving. Do you have any 
comments?
    Director Negroponte. First of all, I regret leaving, 
Senator, for the reasons that you mentioned, and also because I 
believe I brought together a very good team of people, and I 
sincerely hope that as many as possible of them continue their 
service to the Office of the Director of National Intelligence.
    On the other hand, I'm sure that you can also understand 
that for somebody who started his career as a junior Foreign 
Service Officer in the State Department in October 1960, to be 
asked to be Deputy Secretary of State is also a very important 
opportunity.
    Senator Nelson. Clearly, I understand from your personal 
standpoint. But what's more important to the country?
    Director Negroponte. But I was going to say, the third part 
of my remark, Senator, was going to be that while I indicated I 
was available to be the Deputy Secretary of State, if that was 
what the President wished me to do, that the decision was 
entirely up to him. I would serve in either capacity. I would 
do what the President wanted me to do, and this is what the 
President has asked me to do.
    Senator Nelson. Mr. Chairman, just a final comment, back to 
what Senator Wyden said and the skepticism that he expressed, 
Senator Coleman and I were just blown away when we were talking 
to the national security adviser, Dr. Rubai, when he said--and 
this is a quote--this is not a sectarian war. And he went on to 
talk about well, it was the Ba'athists that want to retain 
power, and so forth and so on.
    Now, you know, if the top levels of the government, the 
national security adviser to the Prime Minister, is saying 
that, that indicates a certain mindset. And I don't have any 
more optimism about this thing having reconciliation than the 
comments expressed by Senator Wyden, Senator Snowe and a whole 
host of Senators this morning in the Senate Foreign Relations 
Committee talking to Secretary Rice.
    That's my comment.
    Chairman Rockefeller. All right. Thank you.
    Now, what we will do is go into a 10-minute recess. And I 
hope those who are prepared to, No. 1, to clear the room in an 
appropriate fashion in accordance with classification, and 
second, to do whatever rewiring is necessary, will get at it.
    So we take a 10-minute recess.
    [Whereupon, at 6:14 p.m., the Committee recessed, to 
reconvene immediately in closed session.]

                         SUPPLEMENTAL MATERIALS

[GRAPHIC] [TIFF OMITTED] 48098.001

[GRAPHIC] [TIFF OMITTED] 48098.002

[GRAPHIC] [TIFF OMITTED] 48098.003

[GRAPHIC] [TIFF OMITTED] 48098.004

[GRAPHIC] [TIFF OMITTED] 48098.005

[GRAPHIC] [TIFF OMITTED] 48098.006

[GRAPHIC] [TIFF OMITTED] 48098.007

[GRAPHIC] [TIFF OMITTED] 48098.008

[GRAPHIC] [TIFF OMITTED] 48098.009

[GRAPHIC] [TIFF OMITTED] 48098.010

[GRAPHIC] [TIFF OMITTED] 48098.011

[GRAPHIC] [TIFF OMITTED] 48098.012

[GRAPHIC] [TIFF OMITTED] 48098.013

[GRAPHIC] [TIFF OMITTED] 48098.014

[GRAPHIC] [TIFF OMITTED] 48098.015

[GRAPHIC] [TIFF OMITTED] 48098.016

[GRAPHIC] [TIFF OMITTED] 48098.017

[GRAPHIC] [TIFF OMITTED] 48098.018

[GRAPHIC] [TIFF OMITTED] 48098.019

[GRAPHIC] [TIFF OMITTED] 48098.020

[GRAPHIC] [TIFF OMITTED] 48098.021

[GRAPHIC] [TIFF OMITTED] 48098.022

[GRAPHIC] [TIFF OMITTED] 48098.023

[GRAPHIC] [TIFF OMITTED] 48098.024

[GRAPHIC] [TIFF OMITTED] 48098.025

[GRAPHIC] [TIFF OMITTED] 48098.026

[GRAPHIC] [TIFF OMITTED] 48098.027

[GRAPHIC] [TIFF OMITTED] 48098.028

[GRAPHIC] [TIFF OMITTED] 48098.029

[GRAPHIC] [TIFF OMITTED] 48098.030

[GRAPHIC] [TIFF OMITTED] 48098.031

[GRAPHIC] [TIFF OMITTED] 48098.032

[GRAPHIC] [TIFF OMITTED] 48098.033

[GRAPHIC] [TIFF OMITTED] 48098.034

[GRAPHIC] [TIFF OMITTED] 48098.035

[GRAPHIC] [TIFF OMITTED] 48098.036

[GRAPHIC] [TIFF OMITTED] 48098.037

[GRAPHIC] [TIFF OMITTED] 48098.038

[GRAPHIC] [TIFF OMITTED] 48098.039

[GRAPHIC] [TIFF OMITTED] 48098.040

[GRAPHIC] [TIFF OMITTED] 48098.041

[GRAPHIC] [TIFF OMITTED] 48098.042

[GRAPHIC] [TIFF OMITTED] 48098.043

[GRAPHIC] [TIFF OMITTED] 48098.044

[GRAPHIC] [TIFF OMITTED] 48098.045

[GRAPHIC] [TIFF OMITTED] 48098.046

[GRAPHIC] [TIFF OMITTED] 48098.047

[GRAPHIC] [TIFF OMITTED] 48098.048

[GRAPHIC] [TIFF OMITTED] 48098.049

[GRAPHIC] [TIFF OMITTED] 48098.050

[GRAPHIC] [TIFF OMITTED] 48098.051

[GRAPHIC] [TIFF OMITTED] 48098.052

[GRAPHIC] [TIFF OMITTED] 48098.053

[GRAPHIC] [TIFF OMITTED] 48098.054

[GRAPHIC] [TIFF OMITTED] 48098.055

[GRAPHIC] [TIFF OMITTED] 48098.056

[GRAPHIC] [TIFF OMITTED] 48098.057

[GRAPHIC] [TIFF OMITTED] 48098.058

[GRAPHIC] [TIFF OMITTED] 48098.059

[GRAPHIC] [TIFF OMITTED] 48098.060

[GRAPHIC] [TIFF OMITTED] 48098.061

[GRAPHIC] [TIFF OMITTED] 48098.062

[GRAPHIC] [TIFF OMITTED] 48098.063

[GRAPHIC] [TIFF OMITTED] 48098.064

[GRAPHIC] [TIFF OMITTED] 48098.065

[GRAPHIC] [TIFF OMITTED] 48098.066

[GRAPHIC] [TIFF OMITTED] 48098.067

[GRAPHIC] [TIFF OMITTED] 48098.068

[GRAPHIC] [TIFF OMITTED] 48098.069

[GRAPHIC] [TIFF OMITTED] 48098.070

[GRAPHIC] [TIFF OMITTED] 48098.071

[GRAPHIC] [TIFF OMITTED] 48098.072

[GRAPHIC] [TIFF OMITTED] 48098.073

[GRAPHIC] [TIFF OMITTED] 48098.074

[GRAPHIC] [TIFF OMITTED] 48098.075

[GRAPHIC] [TIFF OMITTED] 48098.076

[GRAPHIC] [TIFF OMITTED] 48098.077

[GRAPHIC] [TIFF OMITTED] 48098.078

[GRAPHIC] [TIFF OMITTED] 48098.079

[GRAPHIC] [TIFF OMITTED] 48098.080

[GRAPHIC] [TIFF OMITTED] 48098.081

[GRAPHIC] [TIFF OMITTED] 48098.082

[GRAPHIC] [TIFF OMITTED] 48098.083

[GRAPHIC] [TIFF OMITTED] 48098.084

[GRAPHIC] [TIFF OMITTED] 48098.085

[GRAPHIC] [TIFF OMITTED] 48098.086

[GRAPHIC] [TIFF OMITTED] 48098.087

[GRAPHIC] [TIFF OMITTED] 48098.088

[GRAPHIC] [TIFF OMITTED] 48098.089

[GRAPHIC] [TIFF OMITTED] 48098.090

[GRAPHIC] [TIFF OMITTED] 48098.091

[GRAPHIC] [TIFF OMITTED] 48098.092

[GRAPHIC] [TIFF OMITTED] 48098.093

[GRAPHIC] [TIFF OMITTED] 48098.094

[GRAPHIC] [TIFF OMITTED] 48098.095

[GRAPHIC] [TIFF OMITTED] 48098.096

[GRAPHIC] [TIFF OMITTED] 48098.097

[GRAPHIC] [TIFF OMITTED] 48098.098

[GRAPHIC] [TIFF OMITTED] 48098.099

[GRAPHIC] [TIFF OMITTED] 48098.100

[GRAPHIC] [TIFF OMITTED] 48098.101

[GRAPHIC] [TIFF OMITTED] 48098.102

[GRAPHIC] [TIFF OMITTED] 48098.103

[GRAPHIC] [TIFF OMITTED] 48098.104

[GRAPHIC] [TIFF OMITTED] 48098.105

[GRAPHIC] [TIFF OMITTED] 48098.106

[GRAPHIC] [TIFF OMITTED] 48098.107

[GRAPHIC] [TIFF OMITTED] 48098.108

[GRAPHIC] [TIFF OMITTED] 48098.109

[GRAPHIC] [TIFF OMITTED] 48098.110

[GRAPHIC] [TIFF OMITTED] 48098.111

[GRAPHIC] [TIFF OMITTED] 48098.112

[GRAPHIC] [TIFF OMITTED] 48098.113

[GRAPHIC] [TIFF OMITTED] 48098.114

[GRAPHIC] [TIFF OMITTED] 48098.115

[GRAPHIC] [TIFF OMITTED] 48098.116

[GRAPHIC] [TIFF OMITTED] 48098.117

[GRAPHIC] [TIFF OMITTED] 48098.118

[GRAPHIC] [TIFF OMITTED] 48098.119

[GRAPHIC] [TIFF OMITTED] 48098.120

[GRAPHIC] [TIFF OMITTED] 48098.121

[GRAPHIC] [TIFF OMITTED] 48098.122

[GRAPHIC] [TIFF OMITTED] 48098.123

[GRAPHIC] [TIFF OMITTED] 48098.124

[GRAPHIC] [TIFF OMITTED] 48098.125

[GRAPHIC] [TIFF OMITTED] 48098.126

[GRAPHIC] [TIFF OMITTED] 48098.127

[GRAPHIC] [TIFF OMITTED] 48098.128

[GRAPHIC] [TIFF OMITTED] 48098.129

[GRAPHIC] [TIFF OMITTED] 48098.130

[GRAPHIC] [TIFF OMITTED] 48098.131

[GRAPHIC] [TIFF OMITTED] 48098.132

[GRAPHIC] [TIFF OMITTED] 48098.133

[GRAPHIC] [TIFF OMITTED] 48098.134

[GRAPHIC] [TIFF OMITTED] 48098.135

[GRAPHIC] [TIFF OMITTED] 48098.136

[GRAPHIC] [TIFF OMITTED] 48098.137

[GRAPHIC] [TIFF OMITTED] 48098.138

[GRAPHIC] [TIFF OMITTED] 48098.139

[GRAPHIC] [TIFF OMITTED] 48098.140

[GRAPHIC] [TIFF OMITTED] 48098.141

[GRAPHIC] [TIFF OMITTED] 48098.142

[GRAPHIC] [TIFF OMITTED] 48098.143


</pre></body></html>
